APPENDIX TO THE PETITION FOR A WRIT
OF CERTIORARI
TABLE OF CONTENTS
Appendix A
Decision of Ohio Court of Appeals
la
(September 3, 2020)........................
Appendix B
Decision of Ohio Trial Court
(November 28, 2018)
26a
Appendix C
Decision of Ohio Supreme Court Denying
Review
(December 29, 2020)
86a
Appendix D
Ohio Revised Code § 3109.03 | Equality of
parental
rights
and
responsibilities
.........................................................................87a
Appendix E
Ohio Revised Code § 3109.04 | Allocating
parental rights and responsibilities for care of
children
shared
parenting
......... 88a
Appendix F
Ohio Revised Code § 3109.051 | Parenting
time - companionship or visitation rights
...................................................................... 112a

la

APPENDIX A
IN THE COURT OF APPEALS OF OHIO TENTH
APPELLATE DISTRICT
No. 18AP-947
Catalin S. Badescu
Plaintiff-Appellee, : (C.P.C. No. 16DR-2436)
(REGULAR CALENDAR)
v.
Veronica V. Badescu,
:
Defendant-Appellant.

DECISION
Rendered on September 3, 2020
On brief: Kemp Law Group, LLC, and Jacqueline L.
Kemp, for appellee.
On brief: Veronica V. Badescu, pro se.
APPEAL from the Franklin County Court of Common
Pleas, Division of Domestic Relations
BROWN, J.
{f 1} Veronica V. Badescu, defendant-appellant
("mother"), appeals from the judgment entry of the
Franklin County Court of Common Pleas, Division of
Domestic Relations, in which the court issued a
decision and judgment entry granting a decree of

2a
divorce and allocating
responsibilities.

parental

rights

and

{^f 2} Mother and Catalin S. Badescu, plaintiffappellee ("father"), were married in March 2010 in
Virginia. Both parties had jobs in the Washington,
D.C. area. They agreed to move to Centerville, Ohio,
in January 2011 because father obtained a job in
Dayton, Ohio. In 2012, after failing to find a new job,
mother began studying at The Ohio State University
in a combined Masters/Ph.D. program. The parties
moved to Galloway, Ohio, to facilitate the commutes.
In December 2014, mother obtained a master's degree
(her second) and discontinued the Ph.D. program at
The Ohio State University. Mother's degree is in
electrical engineering. Her first master's degree
specialty is in space systems operations and her
second master's degree specialty is in system-level
engineering, which means control systems and some
signal processing.
3} In February 2015, the parties purchased a
home in Dublin, Ohio. Mother testified she did not
want to purchase a house and that the parties did not
intend to stay in Ohio long term. The parties had a
child, M.B., born in March 2015. The parties'
marriage began to deteriorate, and they had many
disagreements especially concerning parenting styles.
These disagreements sometimes disintegrated into
emotional and physical abuse by both parties. Mother
searched for employment at first in Ohio, but then
widened her search. She was unemployed from 20112016, other than a research assistant position while
pursuing her Ph.D. In April 2016, she received two
job offers, one in Dayton and one in San Diego,
California. She accepted the job offer in California.
After mother accepted the job offer in California,
father also looked into employment in California.

3a
However, he did not want to move and start over in
California. The parties sought mediation to resolve
the parenting issues regarding mother moving to
California, but the mediation was unsuccessful.
4} On June 20, 2016, father filed a complaint
for divorce in which he sought custody of M.B.
Mother filed a counterclaim for divorce and custody.
On July 14, 2016, a magistrate issued temporary
orders granting permission for mother to temporarily
take M.B. with her to San Diego and ordered a
parenting-time schedule beginning with mother's
relocation on July 15, 2016. The parties commenced a
parenting schedule where each parent was given
alternating 30 days at a time. Also, on July 14, 2016,
a guardian ad litem ("GAL") was appointed.
(Tf 5} On April 13 and August 30, 2018, the parties
entered into partial divorce settlement agreements,
agreeing to property division and spousal support,
leaving the allocation of parental rights and
responsibilities, visitation, and child support for the
trial court to determine. A trial was held on various
dates from August 15 to 24, 2018, with both parties
represented by counsel. On November 28, 2018, the
trial court issued a decision and judgment entry
decree of divorce. With regard to the allocation of
parental rights and responsibilities, the trial court
discussed the best interest of the child and analyzed
the factors in R.C. 3109.04 and 3109.051. The trial
court found that it was in the best interest of the
child that father be named residential parent and
legal custodian and found that parenting time should
be as the parties agree, but if they could not agree,
the court set forth a parenting-time schedule. The
court further set forth orders regarding travel,
communication, emergency decisions, child support,

4a
division of assets and liabilities.
{f 6}
Mother, pro se, appeals the trial court's
judgment, asserting the following two assignments of
error:
[I.] The trial court erred as a matter of law
and abused its discretion by placing the initial
burden on Mother to demonstrate the
necessity of move and placing unfairly
prejudicial weight on Mother's decision to live
out of state, in violation of R.C. § 3109.03.
[II.] The trial court erred in granting sole
custody to Father by failing to assess the best
interest of the child properly under Ohio law,
including without undue emphasis on
Mother's decision to move out of state.
Mother's two assignments of error are
(1 7}
related in that she argues the trial court erred in
placing undue emphasis on her decision to move from
Dublin, Ohio, to San Diego, California. Mother argues
in her first assignment of error that the trial court
erred when it placed the initial burden on her to
demonstrate the necessity of moving and placed
prejudicial weight on her decision to live out of state.
Mother argues in her second assignment of error that
the trial court erred when it granted sole custody to
father by failing to assess the best interest of the
child properly under Ohio law and placing undue
emphasis on mother's decision to move out of state.
Because they are related, we shall address these
assignments of error together.
{f 8} In Pallone v. Pallone, 10th Dist. No. 1 TAP409, 2017-Ohio-9324,t 36, citing Parker v. Parker,
10th Dist. No. 05AP-1171, 2006-0hio-4110, If 23, this

5a
court stated that a trial court must follow R.C.
3109.04 when deciding child custody matters but it
has broad discretion when determining what is the
appropriate allocation of parental rights and
responsibilities. An appellate court affords a trial
court's child custody determinations with some
deference. " 'The discretion which a trial court enjoys
in custody matters should be accorded the utmost
respect, given the nature of the proceeding and the
impact the court's determination will have on the
lives of the parties concerned. The knowledge a trial
court gains through observing the witnesses and the
parties in a custody proceeding cannot be conveyed to
a reviewing court by a printed record.' " Pater v.
Pater, 63 Ohio St.3d 393, 396 (1992), quoting Miller v.
Miller, 37 Ohio St.3d 71, 74 (1988). Therefore, an
appellate court will only reverse a trial court's
custody determination if the trial court abused its
discretion. Parker at ^ 23.
{^f 9} "The term 'abuse of discretion' connotes more
than an error of law or judgment; it implies that the
court's attitude is unreasonable, arbitrary or
unconscionable." Blakemore u. Blakemore, 5 Ohio
St.3d 217, 219 (1983). Even under an abuse of
discretion standard, however, " ' "no court has the
authority, within its discretion, to commit an error of
law." ' " Shaw v. Underwood, 10th Dist. No. 16AP605, 2017-Ohio-845, If 25, quoting JPMorgan Chase
Bank, NA. v. Liggins, 10th Dist. No. 15AP-242, 2016Ohio-3528, ^ 18, quoting State v. Akbari, 10th Dist.
No. 13AP-319, 2013- Ohio-5709, 1 7. Thus, " '[a] court
abuses its discretion when its ruling is founded on an
error of law or a misapplication of law to the facts. f 1!
Independence u. Office of the Cuyahoga Cty.
Executive, 142 Ohio St.3d 125, 2014-0hio-4650, U 49
(O'Donnell, J., dissenting), quoting Doe v. Natl. Bd. of

6a
Med. Examiners, 199 F.3d 146, 154 (3d Cir.1999). See
also Hal v. Dept, of Edn., 10th Dist. No. 18AP-301,
2019-0hio-5081, 1 11.
10} Mother cites to excerpts of language the trial
court used during the pretrial conference held on
October 28, 2016. At the pretrial conference, the trial
court stated:
[T]he burden is on [mother] to demonstrate
why she's upsetting the proverbial applecart.
All right. I take this family as I see them,
where they started from, and what decisions
were made as a family to be. She's going to
have to show me that she absolutely was not
going to be able to pursue a career before I
even get to the step if I'm going to allow a
residential parent to be outside of this
jurisdiction.

Again, it's family decisions that I'm going to
look at. I'm starting in that basis here because
I've heard from at least one side that we have
two good parents and two involved parents.
This child absolutely needs both of his
parents. The reality is if the parents are going
to live in the Midwest and the West Coast, his
relationship with one of his parents is going to
be significantly affected. That's the reality of
it.
So you have a young child who isn't

7a
enmeshed into the community, so to speak,
you know, we don't have him in school, we
don't have him in Boy Scouts, we don't have
all of those other kind of things that we look
at, so I am - you know, motivation for the
move, as it were, is the first place I'm going to
start looking at.

All I'm saying is that limited information I
still have to pull from straws, right, because I
don't have a representation here.
I feel [mother] starts with the burden, and
then we go from there, because there's no good
answers with respect to relocation.
So, of course, you know, the other things you
have to look at is is there availability for your
client to move closer there, that's going to be of
interest to me as well and whether that But where I start with the premise that a
family made a decision to follow dad
somewhere to get a job and then mom went to
school - change the pronouns either way, it
doesn't really matter whether it's a mom or
dad kind of -- you know, I don't want to make
it sound like, you know, I'm only thinking you
follow a dad. Could be following a mom
somewhere for a job. I think the burden is on
the person who's packed up and moved to
demonstrate to me why this jurisdiction is not

8a
the appropriate jurisdiction.
(Oct. 28, 2016 Tr. at 11-14.)
{^f 11} Initially, we note the trial court quoted R.C.
3109.03, as follows: "When husband and wife are
living separate and apart from each other, or are
divorced, and the question as to the parental rights
and responsibilities for the care of their children and
the place of residence and legal custodian of their
children is brought before a court of competent
jurisdiction, they shall stand upon an equality as to
the parental rights and responsibilities for the care of
their children and the place of residence and legal
custodian of their children, so far as parenthood is
involved." The trial court also cited the 14 factors
provided in R.C. 3109.051(D) and provided that it
"has considered and addressed all statutory factors
and has balanced all in making a determination as to
[M.B.'s] best interest." (Emphasis sic.) (Decision at 56.)
{If 12} Further, we note that" '[i]t is axiomatic that
a court speaks only through its journal entries, and
not through mere oral pronouncements.' " State v.
Douglas, 10th Dist. No. 13AP-570, 2014-Ohio-317, If
5, quoting State v. Huddleston, 10th Dist. No. 12AP512, 2013-Ohio-2561, 1f 7, quoting In re P.S., 10th
Dist. No. 07AP-516, 2007-Ohio- 6644, f 12. Our
review of the trial court's decision does not reveal any
indication that the trial court improperly applied the
burdens of proof or improperly placed prejudicial
weight on mother's decision to live out of state or
improperly applied the best interest of the child.
13} Furthermore, when the entire pretrial
transcript is read in context, rather than the excerpts
mother focuses on, it is clear the trial court felt she

9a
had limited information at that point in the
proceedings regarding the family unit and was
interested in learning more information before
deciding parental rights and responsibilities.
{^f 14} R.C. 3109.04 provides factors that the trial
court must consider m determining the best interest
of the child, as follows:
In any divorce, legal separation, or
(A)
annulment proceeding and in any proceeding
pertaining to the allocation of parental rights
and responsibilities for the care of a child,
upon hearing the testimony of either or both
parents and considering any mediation report
filed pursuant to section 3109.052 of the
Revised Code and in accordance with sections
3127.01 to 3127.53 of the Revised Code, the
court shall allocate the parental rights and
responsibilities for the care of the minor
children of the marriage.
•k'k'k

(B)(1) When making the allocation of the
parental rights and responsibilities for the
care of the children under this section in an
original proceeding or in any proceeding for
modification of a prior order of the court
making the allocation, the court shall take
into account that which would be in the best
interest of the children.
'k'k'k

(F)(1) In determining the best interest of a
child pursuant to this section, whether on an
original decree allocating parental rights and

10a
responsibilities for the care of children or a
modification of a decree allocating those rights
and responsibilities, the court shall consider
all relevant factors, including, but not limited
to:
The wishes of the child's parents
(a)
regarding the child's care;
If the court has interviewed the child
(b)
in chambers pursuant to division (B) of this
section regarding the child's wishes and
concerns as to the allocation of parental rights
and responsibilities concerning the child, the
wishes and concerns of the child, as expressed
to the court;
(c)
The
child's
interaction
and
interrelationship with the child's parents,
siblings, and any other person who may
significantly affect the child's best interest;
(d)
The child's adjustment to the child's
home, school, and community;
The mental and physical health of
(e)
all persons involved in the situation;
(f) The parent more likely to honor and
facilitate court- approved parenting time
rights or visitation and companionship rights;
(g)
Whether either parent has failed to
make all child support payments, including all

11a
arrearages, that are required of that parent
pursuant to a child support order under which
that parent is an obligor;
Whether either parent or any
(h)
member of the household of either parent
previously has been convicted of or pleaded
guilty to any criminal offense involving any
act that resulted in a child being an abused
child or a neglected child; whether either
parent, in a case in which a child has been
adjudicated an abused child or a neglected
child, previously has been determined to be
the perpetrator of the abusive or neglectful act
that is the basis of an adjudication; whether
either parent or any member of the household
of either parent previously has been convicted
of or pleaded guilty to a violation of section
2919.25 of the Revised Code or a sexually
oriented offense involving a victim who at the
time of the commission of the offense was a
member of the family or household that is the
subject of the current proceeding; whether
either parent or any member of the household
of either parent previously has been convicted
of or pleaded guilty to any offense involving a
victim who at the time of the commission of
the offense was a member of the family or
household that is the subject of the current
proceeding and caused physical harm to the
victim in the commission of the offense; and
whether there is reason to believe that either
parent has acted in a manner resulting in a
child being an abused child or a neglected
child;

12a
Whether the residential parent or
(i)
one of the parents subject to a shared
parenting decree has continuously and
willfully denied the other parent's right to
parenting time in accordance with an order of
the court;
(j) Whether either parent has established a
residence, or is planning to establish a
residence, outside this state.
In determining whether shared
(2)
parenting is in the best interest of the
children, the court shall consider all relevant
factors, including, but not limited to, the
factors enumerated in division (F)(1) of this
section, the factors enumerated in section
3119.23 of the Revised Code, and all of the
following factors:
The ability of the parents to
(a)
cooperate and make decisions jointly, with
respect to the children;
The ability of each parent to
(b)
encourage the sharing of love, affection, and
contact between the child and the other
parent;
Any history of, or potential for, child
abuse, spouse abuse, other domestic violence,
or parental kidnapping by either parent;
(c)

(d)

The geographic proximity of the

13a
parents to each other, as the proximity relates
to the practical considerations of shared
parenting;
The recommendation of the guardian
(e)
ad litem of the child, if the child has a
guardian ad litem.
{f 15} Further, R.C. 3109.051(C) provides in
determining to grant parenting time rights, a trial
court shall consider a mediation report that is filed
pursuant to R.C. 3109.11 or 3109.12 and shall
consider all other relevant factors, including the
factors listed in R.C. 3109.051(D), which provides, as
follows:
In determining whether to grant parenting time to
a parent pursuant to this section or section 3109.12 of
the Revised Code or companionship or visitation
rights to a grandparent, relative, or other person
pursuant to this section or section 3109.11 or 3109.12
of the Revised Code, in establishing a specific
parenting time or visitation schedule, and in
determining other parenting time matters under this
section or section 3109.12 of the Revised Code or
visitation matters under this section or section
3109.11 or 3109.12 of the Revised Code, the court
shall consider all of the following factors:
interaction
and
prior
(1)
The
interrelationships of the child with the child's
parents, siblings, and other persons related by
consanguinity or affinity, and with the person
who requested companionship or visitation if
that person is not a parent, sibling, or relative
of the child;

14a
The geographical location of the
(2)
residence of each parent and the distance
between those residences, and if the person is
not a parent, the geographical location of that
person's residence and the distance between
that person's residence and the child's
residence;
The child's and parents' available
(3)
time, including, but not limited to, each
parent's employment schedule, the child's
school schedule, and the child's and the
parents' holiday and vacation schedule;
(4)

The age of the child;

The child's adjustment to home,
(5)
school, and community;
If the court has interviewed the child
(6)
in chambers, pursuant to division (C) of this
section, regarding the wishes and concerns of
the child as to parenting time by the parent
who is not the residential parent or
or
visitation
the
companionship
by
grandparent, relative, or other person who
requested companionship or visitation, as to a
specific parenting time or visitation schedule,
or as to other parenting time or visitation
matters, the wishes and concerns of the child,
as expressed to the court;

15a
(7)

The health and safety of the child;

(8)
The amount of time that will be
available for the child to spend with siblings;
The mental and physical health of
(9)
all parties;
(10)
Each
parent's
willingness
to
reschedule missed parenting time and to
facilitate the other parent's parenting time
rights, and with respect to a person who
requested companionship or visitation, the
willingness of that person to reschedule
missed visitation;
In relation to parenting time,
(ID
whether either parent previously has been
convicted of or pleaded guilty to any criminal
offense involving any act that resulted in a
child being an abused child or a neglected
child; whether either parent, in a case in
which a child has been adjudicated an abused
child or a neglected child, previously has been
determined to be the perpetrator of the
abusive or neglectful act that is the basis of
the adjudication; and whether there is reason
to believe that either parent has acted in a
manner resulting in a child being an abused
child or a neglected child;
(12)
In
relation
to
requested
companionship or visitation by a person other
than a parent, whether the person previously

16a
has been convicted of or pleaded guilty to any
criminal offense involving any act that
resulted in a child being an abused child or a
neglected child; whether the person, in a case
in which a child has been adjudicated an
abused child or a neglected child, previously
has been determined to be the perpetrator of
the abusive or neglectful act that is the basis
of the adjudication; whether either parent
previously has been convicted of or pleaded
guilty to a violation of section 2919.25 of the
Revised Code involving a victim who at the
time of the commission of the offense was a
member of the family or household that is the
subject of the current proceeding; whether
either parent previously has been convicted of
an offense involving a victim who at the time
of the commission of the offense was a member
of the family or household that is the subject
of the current proceeding and caused physical
harm to the victim in the commission of the
offense; and whether there is reason to believe
that the person has acted in a manner
resulting in a child being an abused child or a
neglected child;
Whether the residential parent or
(13)
one of the parents subject to a shared
parenting decree has continuously and
willfully denied the other parent's right to
parenting time in accordance with an order of
the court;
(14)
Whether
either
parent
has
established a residence or is planning to

17a

establish a residence outside this state;
(15)
In
relation
to
requested
companionship or visitation by a person other
than a parent, the wishes and concerns of the
child's parents, as expressed by them to the
court;
Any other factor in the best interest
(16)
of the child.
{f 16} In this case, the trial court specifically
considered each factor of R.C. 3109.04(F)(1)(a)
through (j), 3109.04(F)(2), and 3109.051, weighed the
evidence,
and
made
determinations.
R.C.
3109.04(F)(l)(j) requires the court to consider
whether either parent has established a residence
outside the state. Further, R.C. 3109.04(F)(2)(d)
requires the trial court when considering whether
shared parent is appropriate to consider the
geographic proximity of the parents. Thus, the trial
court was required to consider the circumstances
regarding mother's move to San Diego.
{1 17} The trial court thoroughly explored the
required factors to determine M.B.'s best interest.
The trial court recognized that both parties wanted to
be the legal custodian and residential parent for M.B.
Each party wished the other would move to live in
the same city. The trial court found M.B. was only
three years old and too young to express his wishes.
The trial court determined that M.B. is well-bonded
with both parents and has significant relationships
with extended family on both sides. The trial court
found M.B. is very adjusted to his home and
neighborhood
and children in his
father's

18a
M.B.
involved
neighborhood
and
is
m
extracurriculars with his daycare. Father limits
M.B.'s time on electronics and instead spends time
bike riding, playing with neighborhood children,
going to the park behind their house, the splash park,
COSI, and Franklin Park Conservatory. Father
works at keeping M.B. on a schedule.
18} With a 30-day visitation schedule, M.B. has
also adjusted to mother's home and pre-school in San
Diego. Mother lives in a gated community that has
two pools and is close to the ocean. M.B. has his own
room and they have a dog. Mother takes M.B. to
Balboa Park, the beach, the amusement park, the
neighboring wildlife preserve, and the petting zoo.
Mother arranges play dates for M.B. Mother plans
to stay in the area where she currently lives.
{^f 19} The trial court found that both homes are
appropriate and adequate for raising M.B., and both
provide
wonderful
excellent
opportunities,
high quality of life, such as
infrastructures and
parks and recreation, good school systems, and
extracurricular activities. Both parents advocated
that each location was able to provide for M.B.'s best
interest. The trial court found that both parents excel
in their ability to provide for M.B.'s basic needs. The
trial court did find that father's home and
neighborhood were more familiar for M.B. and filled
with neighbors and children M.B.'s age that he has
known for most of his life and will go to the same
schools.
20} The trial court found both parties and M.B.
enjoy good physical health. When examining the
mental health of the parties, the trial court
acknowledged that both parties expressed concern
about the other party's mental health and emotional
stabilities. The parties had psychological evaluations

19a
conducted and the psychologist determined that both
parents had a good relationship with their son, but
father should be designated school placement parent
with mother receiving extended visitation time
during the summer. The psychologist suggested it
would be best for mother to move back to central Ohio
and, if so, recommended an equally shared parenting
plan. Mother argues this finding by the psychologist
demonstrates that the improper burden placed on her
to demonstrate the move to San Diego was necessary
was adopted by the psychologist. We note that the
psychologist's report was a joint exhibit submitted by
the parties and mother did not object to its admission
and did not call him for cross-examination. The trial
court did carefully consider each party's evaluations,
especially the personality profiles and tendencies to
determine which parent was more likely to
consistently put M.B.'s best interest first.
{1 21} The trial court observed father was more
likely to facilitate parenting rights and visitation
based on the finding that father plans and works
hard to facilitate mother's SKYPE calls and mother
did not do the same. The trial court found R.C.
3109.04(F)(1)(g), (h), and (i) not relevant factors to
these facts.
{^f 22} The trial court acknowledged that mother
lives in San Diego and plans to remain there. Father
currently lives in Dublin and plans to remain there
until M.B. graduates from high school. The trial court
specifically found mother was not credible regarding
her testimony that she did not agree to purchase a
home in Dublin and to raise her son in Dublin. The
trial court stated: "[tjhese parties are extremely
intelligent and intensely thoughtful individuals who
clearly value education and as such, [mother's]
contention that she did not fully consent to [father's]

20a
desire to purchase this home and that she/they did
not significantly investigate the neighborhood,
surrounding daycares and/or make all such
considerations regarding raising and educating their
child here is simply not credible or in line with
[mother's] manner of making life decisions." (Decision
at 3-4.) Subsequently the trial court stated: "[t]he
[mother] is not credible in her testimony that she did
not fully agree to the choice for the parties to
purchase their home in Dublin and to raise their son
there or in her (now) criticism of [father's] long work
commute." (Decision at 12.)
23} Despite the fact that mother believes it is in
M.B.'s best interest for father to move to San Diego, a
vocational expert hired by mother testified that
although father could find a reasonable job
opportunity, there would be a loss of benefits and
specialization. The best fit for his experience and
qualifications were at Edwards Air Force Base,
approximately three hours outside San Diego. In that
situation, father would still be exercising long­
distance parenting.
{^[ 24} The trial court found the parties could not
cooperate and make joint decisions because mother
refuses to communicate with father other than
through the My Family Wizard app. Prior to trial, the
parties were only communicating via e-mail or text
messages. Mother would not answer father's
telephone calls.
{^[ 25} The trial court found that father is the
parent most cognizant of M.B.'s need to share love,
affection, and contact with the other parent. Father
testified he focuses M.B. for his SKYPE calls with
mother and prepares him emotionally and physically
for the exchanges between the households. Mother
argues the SKYPE recordings that father made

21a
without her knowledge should not have been shown
at trial. However, mother failed to object at trial. In
Dillon v. Waller, 10th Dist. No. 95APE05-622 (Dec.
26, 1995), this court stated: "[ajlleged errors which
arise during the course of a trial, which are not
brought to the attention of the court by objection or
otherwise, are waived and may not be raised upon
appeal." Dillon citing Stores Realty Co. v. Cleveland,
41 Ohio St.2d 41, 43 (1975). Moreover, the videotapes
were not the only evidence that was a basis for the
trial court's decision.
{^f 26} The trial court found that "it is hard to
imagine that [mother's] overt dislike and distancing
from [father] does not (even if unconsciously) spill
over to [M.B.]. While this trier of fact has tried
countless high conflict divorces and custody disputes,
the visceral anger and negative reaction of [mother's]
body language and voice inflection when talking
about [father] stands out as memorable." (Decision at
14.) The trial court noted that mother did not include
father as a contact when she enrolled M.B. in daycare
in San Diego. Further, the trial court found father
credible when he testified that mother's actions
during exchanges with M.B. indicates she does not
emotionally prepare him for transitioning to his
father. Pallone at ^ 26.
Such determinations of
credibility and the weight to be given to the evidence
are for the trial court. Bechtol v. Bechtol, 49 Ohio
St.3d 21, 23 (1990), syllabus corrected, 51 Ohio St.3d
701 (1990). The trial court as the factfinder may
choose to believe or disbelieve any witness, and"
'court is free to accept or reject, in whole or in part,
the testimony or opinions of any witness, whether
accepted as an expert or not and determine the
weight and credibility to be given thereto.' " Pallone
at, f 26 quoting Jackson v. Jackson, 5th Dist. No. 03-

22a
CA-17, 2004-0hio-816, H 21, citing State v. DeHass,
10 Ohio St.2d 230 (1967), paragraph one of the
syllabus. "On the trial of a case, either civil or
criminal, the weight to be given the evidence and the
credibility of the witnesses are primarily for the trier
of the facts." DeHass at paragraph one of the
syllabus.
{^f 27} Regarding whether there is a history or
potential for abuse, the trial court acknowledged
these parties admitted they argued frequently.
Several times the arguments escalated and there was
mutual inappropriate verbal and inappropriate
physical contact. On one occasion, father kicked
mother and broke her tailbone. The trial court found
it notable that father is able to demonstrate selfawareness and is regretful for his actions and failings
during the marriage but there is no sense of that
from mother.
{^f 28} The trial court found the geographic
distance between the parties and their inability to
make joint decisions make shared parenting an
unworkable plan in this case.
29} The GAL recommended the current 30day
on/ 30-day off parenting schedule continue until M.B.
enters kindergarten and father be named residential
parent and legal custodian and then mother's
summer parenting time be extended to two full
months. During trial, the GAL was specifically asked
if mother had stayed and father had moved, whether
the GAL would recommend mother as the legal
custodian. The GAL responded: "[i]f all the other facts
worked the same way, yes." However, he clarified
that the distinction for him was not that one party
had moved but, rather, "it's about the impact of one
parent moving 2,300 miles away on the relationship
of the child with the other parent. It's a subtle, but, to

23a
me, a very significant difference." (Tr. Vol. VI at
1008.) Mother argued the GAL did not do a thorough
job in this case. The GAL conducted an investigation,
visited each home, interviewed family members,
issued a report and attended trial, including
participating and testifying at trial, subject to crossexamination. The trial judge, as trier of fact, was
entitled to believe or disbelieve the GAL's testimony
and to consider it in the context of all the evidence
before the court. In its role as fact finder, a trial
court may choose to believe or disbelieve any witness.
H.R. v. L.R., 181 Ohio App.3d 837, 2009-Ohio-665, 1
15 (10th Dist.), citing State v. White, 118 Ohio St.3d
12, 2008-0hio-1623, If 71. Mother has failed to point
to any particular finding that is unreasonable or
otherwise unsupported by the evidence because of
improper reliance on the testimony of the GAL.
30} When examining M.B.'s, mother's and
father's available time, the trial court acknowledged
that father lives in Dublin and works in Dayton,
therefore, he commutes every day for work, but he
does have some ability to adjust his start and stop
times to be available for M.B. Mother has more
flexibility regarding her schedule and is within
walking distance of M.B.'s preschool and is in close
proximity of the other schools.
31} The trial court found that R.C.
3109.051(D)(8), (14), and (15) were not applicable
factors.
32} When considering any other factor in the
best interest of the child, the trial court considered
that both parties made financial arguments
regarding which location was better. Each party
believed his/her employment was a bigger priority
over the other party's employment. The trial court
determined that mother's decision to accept

24a
employment across the country from father was a
decision made in her best interest, not M.B.'s best
interest. However, the trial court stated that this
decision/factor should not be viewed as the "only or
even as the deciding factor, as there are other factors,
including but not limited to the parties' psychological
evaluations and as otherwise noted herein which
support this Court's final determination of [M.B.'s]
best interest." (Decision at 17.) The trial court did not
find credible that mother was unable to find
employment in the central Ohio area, especially since
she had a job offer in Dayton at the time she accepted
the job in San Diego. The trial court stated: "[djespite
her arguments to the contrary, while perhaps not as
'perfect fit' as her current employment or as desired
of career path it pushes credibility that this
intelligent, hard-working, ambitious individual could
not have found sustainable employment in the
Central Ohio area if she had really wanted to."
(Emphasis sic.) (Decision at 5.)
{^[ 33} Given the thorough examination of the
factors, the GAL report and testimony, and the
psychologist's report and testimony involved in this
case, the trial court did not abuse her discretion in
determining what is in M.B.'s best interest. Several
times the trial court found mother's testimony not
credible. "'The choice between credible witnesses and
their conflicting testimony rests solely with the finder
of fact, and an appellate court may not substitute its
own judgment for that of the finder of fact.' " Doe v.
Vineyard Columbus, 10th Dist. No. 13AP-599, 2014Ohio-2617, If 24, quoting Cuyahoga Metro. Housing
Auth. v. Davis, 197 Ohio App.3d 411, 2011-Ohio-6162,
1 33 (8th Dist.).
34} The trial court made a well-reasoned
decision with respect to the custody of M.B. based on

25a
the testimony and evidence produced at trial. The
trial court specifically stated that it "carefully
observed each witness's demeanor, gestures, and
voice inflections during his/her testimony in
determining the credibility of and weighing the
testimony and evidence presented." (Decision at 3.)
The court noted the difficulty it faced in formulating
a reasonable parenting plan because of the distance
between the parties. In making its custody order, the
court relied on the best interest factors contained in
R.C. 3109.04 and 3109.051. The court concluded and
was well within its discretion that it was in M.B.'s
best interest for father to be residential parent and
legal custodian. There is no indication the trial court
placed a burden on mother to demonstrate the
necessity of moving or placed unfairly prejudicial
weight on her decision to live out of state. While
mother disagrees with the trial court's determination,
we have reviewed the record and cannot say the trial
court's decision constitutes an abuse of discretion.
Mother's first and second assignments of error are
overruled.
{^f 35} Accordingly, we overrule mother's two
assignments of error and affirm the judgment of the
Franklin County Court of Common Pleas, Division of
Domestic Relations.
Judgment affirmed.
KLATT and DORRIAN, JJ., concur.

26a
APPENDIX B
IN THE FRANKLIN COUNTY, OHIO, COURT
OF COMMON PLEAS DIVISION OF DOMESTIC
RELATIONS AND JUVENILE BRANCH

CATALIN S. BADESCU,
No. 16DR-06-2436
Plaintiff,
Judge Elizabeth Gill
Magistrate Knisley
VERONICA V. BADESCU,
Defendant.
v.

DECISION AND JUDGMENT ENTRY
DECREE OF DIVORCE

I. RELEVANT PROCEDURAL
AND BACKGROUND

HISTORY

This cause came on to be heard on August 15, 16,
17, 21, 22, 23 and 24, 2018 on the Plaintiffs
Complaint for Divorce filed on June 20, 2016 and the
Defendant's Answer and Counter-Claim for Divorce
filed on July 7, 2016.
The Plaintiff was present throughout the trial and
represented by Jacqueline Kemp, Esq. The Defendant

27a
was present throughout the trial and represented
Karen Ball, Esq. The Guardian ad Litem, Ralph
Silvestri, Esq. was present on behalf of the minor
child.
Brooke Ketner Farthing, James Murphy, Theresa
Donnley, Matthew King, Veronica Badescu, Catalin
Stefan Badescu, Monica Zins, D. L., Crystal Leukart,
C. F. B.-Q., Kathleen Young, and A. B. testified.
Initial testimony was elicited from C. C., however,
due to the witness' schedule and technical difficulties
the testimony was not concluded and there was no
opportunity for cross examination. Therefore, his
testimony will be stricken.
On or about April 13, 2018 and August 30, 2018
the parties entered into partial Divorce Settlement
Memorandums the terms of which are being
incorporated herein. Stipulated Jt.
Exhibit IA was admitted into evidence. Plaintiffs
Exhibits 1-16, 19, 23-26 and 28 (A) and 28(8) were
admitted into the record. Defendant's Exhibit A -G
(including all subparts), H(l)(3)(5-9a)(13-14), 1(2)1(3),
J-M (including all subparts), N(l)-(3) and N(5), O-R
(including all subparts), U(l-3), W, and Aa were
admitted into the record. Guardian ad Litem's
Exhibit I was admitted into the record.
After full consideration
determines the following:

the

Court

hereby

II. FINDINGS OF FACT
A.

GENERAL FACTS
1. Prior to the filing of the Complaint and
Counter-claim, both parties were bona fide

28a

residents of the State of Ohio for 6 months
and were a resident of Franklin County for 90
days.
2. The parties were married on March 27, 2010.
3. One son was born as issue of the marriage,
M.B. whose date of birth is 2015.1
4. The Defendant is not currently pregnant and
has not had or adopted any other children
during the parties' separation.
5. Neither party is currently in a federal
bankruptcy proceeding.
6. Neither party is an active member of the
United States Armed Forces.
7. The parties
incompatible.

stipulated

that

they

are

8. The Court has jurisdiction of the parties and
the subject matter.
B. DATES OF MARRIAGE
The dates of the marriage are from March 27, 2010
1 The name and exact date of birth date of the minor child M.B. are redacted herein pursuant
to Rule 34.6 and Federal Rule of Civil Procedure 5.2. Additional redaction has also been
applied to irrelevant material and to other personal information.

29a
through August 15, 2018.
C. BRIEF HISTORY AND RELATIVE FACTS
It is not unusual for contested divorce cases to be
fraught with "he said she said" conflicting testimony.
In the end, it is the Court's responsibility to sift
through the body of testimony and evidence
presented to endeavor to get to the truth of the
matter in attempting to determine an allocation of
parental rights and responsibilities in the best
interest of the minor child. It is never easy and there
is often some sense for this trier of fact, that, "the
truth lies somewhere in the middle." In the instant
case, the Court has thoughtfully reviewed the entire
court file, all pleadings, affidavits and depositions
filed in this matter during the course of this
litigation, the reports of the Guardian ad Litem, and
the testimony/evidence presented at trial herein. The
Court has carefully observed each witness's
demeanor, gestures, and voice inflections during
his/her testimony in determining the credibility of
and weighing the testimony and evidence presented.
Following herein is a summary of some of the
important facts, events and testimony which were
considered in reaching a final determination in this
matter. The omission of a specific finding as to every
piece of evidence or testimony presented does not and
should not suggest that this trier of fact did not
consider such testimony, fact and/or evidence in
arriving at the ultimate decision.
The history of this family has been outlined in both
the Report of the Guardian ad Litem and Dr.
Lowenstein's Psychological Evaluation.
The

30a

testimony and evidence at trial was fairly consistent
with the findings of this Court and therefore will not
be repeated in detail herein.
The parties met when both were working and
living in the Washington DC area. They moved in
together in September 2009 and lived in Alexandria,
Virginia. As stated above, they were married on
March 27, 2010. Both parties were employed at the
time and seriously pursuing their respective careers.
By agreement of the parties both parties gave up
their respective positions and they relocated to
Centerville, Ohio (the Dayton Ohio area) when the
Plaintiff obtained a position at Wright-Patterson Air
Force Base in Dayton, OH in 2011. After relocating to
Ohio, the Defendant decided to further her education
in the pursuit of a combined Masters/Ph.D program
at the Ohio State University. At that time, the
Plaintiff
encouraged
Defendant
to
consider
continuing her education in Dayton for ease of travel
and proximity to potential employers. When
Defendant insisted on enrolling at the Ohio State
University in Columbus, the parties moved to the far
west side of Franklin County, Ohio to facilitate each
party's respective commute - Plaintiffs commute to
Dayton and Defendant's commute to Columbus.
Ultimately, the Plaintiff did not earn her Ph.d as she
did not complete the program, but did obtain her
Masters (her second). (Defendant contends this was
due to lack of adequate funding. Plaintiff contends
that Defendant's personality had more to do with the
change of plans.) Shortly before their child, M.B. was
born, the parties purchased a home in Dublin Ohio.
Both parties provided detail versions of the decision
making, events and thought processes that occurred
in their joint decision to purchase this home. Tt is

31a
clear that Defendant never liked living in Ohio. She
also preferred the idea of staying in the apartment or
buying a condominium as opposed to purchasing a
stand-alone home. Defendant disputes Plaintiffs
contention that the neighborhood and suburb were
chosen after the parties did research on the Dublin
Ohio area. However, having reviewed the
evidence and listened to the testimony of both parties
and their witnesses, the Court finds that Plaintiffs
rendition of the facts which lead up to the move from
Centerville to Franklin County and ultimately to
Dublin, Ohio are more credible. These parties are
extremely intelligent and intensely thoughtful
individuals who clearly value education and as such,
Defendant's contention that she did not fully consent
to Plaintiffs desire to purchase this home and that
she/they did not significantly investigate the
neighborhood, surrounding daycares and/or make all
such considerations regarding raising and educating
their child here is simply not credible or in line with
the Defendant's manner of making life decisions.
Defendant is credible that she felt overwhelmed
and extremely stressed by the extended visits of her
mother and the Plaintiffs mother immediately
following M.B.'s birth. It is also credible that she felt
(and still feels) angry that Plaintiff had allowed for
these extended in-home grandparent stays despite
her expressed desire for that not to happen.
Further, although the parties specifically planned to
conceive M.B. and attended parenting classes
together there was considerable difference in opinion
as to how to take care of M.B. after he was born.
Both parties were excited to be parents. Although she
admits that Plaintiff helped care for M.B. "when he
was home," Defendant felt that Plaintiff was absent

32a
much of the time due to work. While the parenting
roles certainly were defined on the realities that the
Plaintiff was employed full time and Defendant was
not, the facts do not indicate the Plaintiff worked
excessively and/or was not an active engaged parent
when he was not working. At the time of M.B.'s birth
the Plaintiff held a contract position and did not have
significant leave time. (He is now a permanent
employee). Defendant admits that Plaintiff changed
M.B.'s diapers, fed him, held him to comfort him,
spent time playing with him and took him on walks.
At times even though she was not working Defendant
would have M.B. in daycare when she needed to go to
appointments or interviews. Importantly, Plaintiff is
credible in his testimony as to the conflicts which
arose between the parents about child rearing and
other parenting issues and Defendant's behaviors and
actions regarding same. For example, much conflict
arose from Defendant's insistence on room sharing
with M.B.
Defendant's support of "co-sleeping" and
Defendant's insistence on breastfeeding for all
feedings despite Plaintiffs suggestion that night
feedings did not need to be so which would allow
Plaintiff to assist and participate while allowing
De'fendant to get a good night's sleep.
Defendant was not employed from 2011 until 2016
(except for the research assistance position while
pursuing her Ph.D). Defendant began seeking
employment after Matai was born. It was very
important to Defendant that she be given the same
opportunity as the Plaintiff to have a career and to
earn 'at least' $85,000. There is much contention ami
disputed evidence about the unique qualifications of
various Engineering degrees and whether or not the
Defendant could find employment in her field in the

33a
Central Ohio area. At the time, Plaintiff was aware
that Defendant was conducting a nationwide search
but strongly encouraged her to look in the
Dayton/Columbus area. Plaintiff actively attempted
to assist Defendant in obtaining employment in the
local area. Defendant had strong negative feelings
about Plaintiffs assistance and has expressed
concern about nepotism. Despite this, Defendant
insists that she followed up with Plaintiffs leads. In
April 2016, Defendant received a written offer for
employment with SRC in Dayton which would have
paid her over $70,000 per year. Plaintiff did not know
that Defendant had applied for her current position
at Spawar in San Diego California until Defendant
told him that she had received the offer in April 2016.
Ultimately, she accepted this position in what
Defendant passionately describes as her dream
career. Defendant accepted this position without
advising Plaintiff of her intent to do so.
Despite her arguments to the contrary, while
perhaps not as "perfect fit" as her current
employment or as desired of career path it pushes
credibility that this intelligent, hard-working,
ambitious individual could not have found
sustainable employment in the Central Ohio area if
she had really wanted to. Defendant is adamant that
she is entitled to pursue a career in her specific area
of expertise and to move where she wishes. Moreover,
she has made it clear that although she has only
worked in this position for two years, that she has no
intentions of leaving this employment even if M.B.
lives primarily in Ohio.
There is also much contention as to whether the

34a
Plaintiff could transfer and/or obtain employment in
California. When Defendant told him that she was
going to take the job and move, the Plaintiff
researched and considered employment opportunities
in San Diego. Certainly, Plaintiff has spent much
time vesting and earning seniority in his current
position which would be lost if he changed jobs. It is
also clear that Plaintiff is very satisfied with his
current career which matches his specific area of
expertise. However, it pushes credibility that this
intelligent, hard-working, ambitious individual could
not find sustainable employment in the San Diego
area if he really wanted to. In fact, the Plaintiff has
stated that he will likely give up his career and find
alternative employment if M.B. lives primarily in
California. Defendant is stringent in her position that
she should be entitled to pursue the career of her
chosing especially since the Plaintiff has been able to
do so and that M.B.'s best interests are served
because she is happier, she is more financially able to
provide for her son and would have the support of her
family who also lives on the west coast. With such
rationalization she states with certainty that
therefore, her move across country should not be
"held against" her in M.B.'s custodial determination.
On the other hand, Plaintiff also does not wish to give
up his established career here in Ohio as it appears
unlikely that he could find equivalent career and
would lose the benefits of seniority, the accompanying
income and a home/neighborhood that he believes
provides for M.B.'s best interest. Certainly, both
parties have the right to pursue their career and to
live where they want to and both have the right to
put forward their best interest arguments as to what
allocation of parental rights is in Mate's best interest.

35a
Pursuant to RC §3109.03, "When husband and wife
are living separate and apart from each other, or arc
divorced, and the question as to the parental rights
and responsibilities for the care of their children and
the place of residence and legal custodian of their
children is brought before a court of competent
jurisdiction, they shall stand upon an equality as to
the parental rights and responsibilities for the care of
their children and the place of residence and legal
custodian of their children, so far as parenthood is
involved." Pursuant to RC §3109.05.1 (D) "In
determining whether to grant parenting time to a
parent....and determining other parenting time
matters....the court shall consider all of the following
factors:" including "(14) Whether either parent has
established a residence ....outside this state."
(Emphasis added). In its decision herein, the Court
has considered and addressed all statutory factors
and has balanced all in making a determination as to
M.B.'s best interest.
After the Defendant decided to move to California,
the parties attempted to mediate where M.B. would
live. However, because Defendant's only option was
that M.B. move to California, the parties considered
options and scenarios if the Plaintiff acquiesced in
the move. The parties also contest whether the
Plaintiff at some point (after the Defendant had
accepted the position) agreed to M.B.'s permanent
move to San Diego. Plaintiff admits that he agreed on
an interim basis because M.B. was still breast feeding
and he had to travel on the death of his grandfather
in July 2016. He also admits to exploring the idea of
his own move. However, it is important to note that
during those negotiations, Defendant never wavered
on her intent to move, had already accepted

36a
employment and decided that her career move was
not contingent on the assuredness that M.B. would be
allowed to move with her. Plaintiff never consented to
M.B.'s permanent move to California and Plaintiffs
filing for divorce after in proximity to the parties'
unsuccessful mediation is indicative of his
disagreement with a permanent move.
The
allocation
of
parental
rights
and
responsibilities have been the central point of the
litigation. "Long distant" parenting cases are some
of the toughest that this Court must decide. When
parents do not live in close proximity to each other,
the quality and quantity of the child's relationship
with one of his/her parents is likely to be greatly
affected. Even after years of practice, this trier of fact
has not lost the sense of the immense responsibility
in determining what living and parenting
arrangement has the best opportunity of providing
for the best opportunity for the child to have a quality
relationship with each parent despite the distance
and what arrangement is in the overall best interest
of the child. The Court is directed in its
determination in considering the factors enumerated
in 3109.04 and 3109.051 as enumerated in more
detail below.
D. ASSETS AND LIABILITIES
In the Divorce Settlement Memorandums filed
April 13 and August 30, 2018, which have been filed
with the Court the parties agreed to a property
division and waived his and her rights to written
findings of fact pursuant to ORC §3105.171.

37a
E. SPOUSAL SUPPORT: R.C. §3105.1S(C)(1)
In the Divorce Settlement Memorandum filed
August 30, 2018, which has been filed with the Court,
the parties agreed that neither party would pay
spousal support to the other.
F. ALLOCATION OF PARENTAL RIGHTS
AND RESPONSIBILITIES AND CUSTODY R.C.
3109.04(F)(1) and R.C. 3109.051
In determining the best interest of a child pursuant
to this section, whether on an original decree
allocating and parental rights and responsibilities for
the care of children or a modification of a decree
allocating those rights and responsibilities the court
shall consider all relevant factors... In determining
whether to grant parenting time to a parent... in
establishing a specific parenting time or visitation
schedule, and in determining other parenting time
matters, the court shall consider all of the following
factors.
1. The wishes of the child's parents
regarding the child's care. (R.C.§3109.04(F)(l)(a)
and RC 3109.051(D)(15)).
Plaintiff wants M.B. to reside with him in Ohio.
Plaintiff wishes Defendant would move back to Ohio.
Plaintiff believes that M.B.'s best interests are served.
if the parties can make joint decisions. Although he
detailed a proposed allocation of parental rights and
responsibilities in "the Father's Proposed Joint
Shared Parenting Plan" which has been identified as

38a
Exhibit 26, he requested at trial that he be named
legal custodian and residential parent of the minor
child. In any event, he wishes for Defendant to
exercise parenting time pursuant to Franklin County
Local Rule 27.1, long distance parenting. He is open
to the Defendant having additional parenting time
here in Ohio but would like the long- distance
schedule to start sooner rather than later in sufficient
time for M.B. to be fully prepared for kindergarten.
Plaintiff would like 15 to 30 minutes of quality
SKYPE calls, 3 times a week between M.B. and his
non-residential parent.
Defendant wants M.B. to reside with her in San
Diego. Defendant wishes for the Plaintiff to move to
California. She details her exact wishes in
"Defendant's Proposed Parenting Plan" which has
been identified as Exhibit W. For so long as the
parents reside a 'significant' distance from each
other, she requests that she be named legal custodian
and residential parent. In the event Plaintiff re­
locates to within 5-15 miles of her residence, she
proposes that they both be designated as residential
parents and legal custodians and that the parents
proceed with "parallel parenting" in which each
parent can exercise his and her rights and
responsibilities
associated
with
custody,
independently from one another. Under such an
amlllgement, each parent may make decisions
(subject to a responsibility to secure input from the
other) regarding the day-to-day care and control of
the child while the child is residing with that parent.
As part of this process she requests that the parties
be required to do all communication through My
Family Wizard (MFW). In addition, the Defendant
requests the involvement of a parent coordinator to

39a
resolve any unagreed issues requiring 'mutual"
decision making. Defendant proposes that the current
temporary arrangement of month on month off basis
continue until M.B. is enrolled in Kindergarten which
is scheduled to be the fall of 2020. After enrollment in
Kindergarten, the Plaintiff would have the option of
parenting time during the school year in San Diego
twice per month and for the entire summer break
(except with Defendant having some periods of time).
In the event Plaintiff relocates within 5 to 15 miles of
her parenting time would be equal.
2.
The
wishes
of
the
child.
(R.C.§3109.04(F)(l)(b)) and (R.C.§3109.051(D)(6)).
M.B. is only three years old and not mature enough
to express his wishes.
interaction
3. The
child's
and
interrelationship with the child's parents,
siblings, and any other person who may
significantly affect the child's best interest.
(R.C.§3109.04(F)(1)(c)) and (R.C.§3109.05.1(D)(1)).
By all accounts, M.B. is well bonded with both of
his parents. He uses the Romanian "Tata" for Father
and "Boon" and "Boona" for his paternal
grandparents. He has significant relationships with
his extended family on both sides. Even though they
do not live in the same city or country as the Plaintiff
or Defendant, M.B.'s maternal and paternal
grandparents have assisted with his day to day care
and upbringing both before the parties separated and
certainly since the parties separated. Both sets of

40a

grandparents have traveled from their homes and
stayed for extended periods of time with M.B.. Since
the parties' separation, the paternal grandparents
alternate 6 months of the year with Plaintiff and
M.B. and Maternal grandparents spent significant
time in San Diego with Defendant and M.B.,
especially before he was able to be enrolled in the San
Diego daycare when his maternal grandmother would
come every month he was there.
Defendant's family originates from the Philippines
and she has Aunts and Uncles and (very) extended
family in the San Diego/Southern California area.
Her parents and her siblings live in Seattle,
Washington. Plaintiffs sister is currently living in
Laos but has established a relationship with M.B.
through SKYPE.
Both parents would like to take M.B. to visit the
country of their origin.
4. The child's adjustment to the child's
and
community.
home,
school,
(R.C.§3109.04(F)(l)(d)) and (R.C.§3109.05l(D)(5)).
M.B. was born while his parents resided together
in Dublin, Ohio. He came home from the hospital to
the home in Dublin, Ohio that his parents purchased
together when they were pregnant and in which
father continues to live. He is very adjusted to his
The
home, his daycare and his neighborhood,
neighborhood is in a cul-de-sac and the neighbors are
socially close including many children with whom
M.B. associates with on a daily basis. Some of the

41a

children in his neighborhood go to his same daycare,
the Gardner school. The school has a pre-k and
kindergarten program and children go from there
into the Dublin and Hilliard schools. M.B. is expected
to matriculate into the Dublin schools with children
he knows from the neighborhood and his school.
Plaintiff expects to maintain this as his home and has
no plans on moving until M.B. is through high school.
M.B. has been involved in drama classes, dance
classes and music classes while here in Dublin, Ohio.
Plaintiff tries to keep M.B. on a schedule. He limits
his time on electronics and spends time bike riding,
going to the splash park, the Franklin Park
Conservatory and COSI. There is a park right behind
his house. He makes sure he has a routine, gets his
naps, plays games and reads to him in the evening.
At his father's home he goes to bed at 8:30 p.m. or
9:00 p.m. (after he SKYPES with the Defendant) and
wakes up at 6:30 a.m. Either his father or his
grandfather take M.B. to school. Plaintiffs seniority
has provided him with significant amount of days off
plus 10 holidays. He has some flexibility to work
remotely.
M.B. has spent equal time between his mother and
father's home on an approximate 30 day on and off
basis since July 2016. As a result, he is now also
adjusted to his mother's home and the pre-school she
enrolled him into in San Diego. Although she
reported some separation anxiety initially, Defendant
does not notice any transition issues at this time and
his San Diego pre-school reports that he is adjusting
well. Defendant lives in a gated community, with two
pools where M.B. also has his own room. They have a

42a
pet dog. M.B. loves to go to the beach, to play with
his dog, play in the yard and to watch the parrots.
Defendant and M.B. read together and play hide and
seek. Defendant takes him to Balboa Park, the
amusement park, the neighboring wild life preserve,
the petting zoo and to get ice cream. Defendant has
also worked to establish friendships and relationships
for M.B. in California although few if any of these are
in the immediate neighborhood. Although she is
renting, Defendant testified that she intends to reside
in her apartment unless she determines that it is best
for her to purchase a condominium in the local area.
Defendant's schedule is more flexible than Plaintiffs
and she works 5 days one week and 4 days the next.
Both homes are appropriate and adequate for
raising
M.B..
In
addition,
both
parent's
neighborhoods provide M.B.
with wonderful
opportunities, excellent infrastructures and high
quality of life such as parks and recreation, good
school systems and extracurricular activities. Not
surprisingly both parents are focused on the
importance of M.B. obtaining a good education. Each
consciously provides him with educational tools. Each
parent provided supporting evidence and testimony
to support his and her position that M.B. living in
Ohio or California is in his best interest. Defendant's
presentation is notable as it is evident that in
Defendant's mind, California living and the
opportunities it avails is far superior than life in Ohio
could provide for M.B.. In fact, both parties'
residences have positives that support their
contentions and that would support M.B.'s best
interest. For example, Defendant works in close
proximity to M.B.'s daycare and future schools
allowing her to use her work flexibility if necessary

43a
for ease of access. Fmiher, the schools in California
provide for some flexibility when it comes to M.B.
visiting across country and continuity of educational
experience. The Plaintiffs home is more familiar to
M.B. and is filled with neighbors and children M.B.'s
age that he has known his entire life.
There are no concerns about either parent's ability
to provide for M.B.'s basic needs. In fact, both parents
appear to excel in that regard.
Although M.B. appears to have adjusted to the
month on month off long distance schedule and
currently transitions fairly easily between his
daycares, there is a concern for educational
continuity as the day care curriculum starts to focus
more on pre-k preparation. At the present time,
Plaintiff relates M.B. needs some time to "catch up"
when he comes back to Ohio and he has noticed that
the time difference leads to adjustments in sleep
schedule. Although there are no apparent concerns
from either daycare at this time, the Director of the
Gardner school expressed concern that the upcoming
curriculum would be harder for M.B. to navigate on a
30 day on 30 day off basis, especially as he gets ready
to matriculate into kindergarten.
5. The mental and physical health of all
situation.
m
the
persons
involved
(R.C.§3109.04(F)(l)(e)) and (R.C.§3109.051(0)(9».
Both parents enjoy good physical health. M.B. also
is a healthy child.

44a

Both parties expressed concern about the other
parent's mental health and emotional stabilities. Dr.
David M. Lowenstein conducted psychological
evaluations on the parties. While neither party's
evaluation is remarkable for mental illness or
personality disorder rendering either as unsuitable to
parent M.B., the underlying test results and Dr.
Lowenstein' s findings are significantly consistent
with this trier of facts observation of each party and
their interpersonal interactions during the course of
the trial and the testimony and evidence presented.
Therefore, these findings need not be repeated in
total here - but have been considered. In making the
very difficult decision as to which parent is to be
M.B.'s legal custodian, the Court has carefully
considered each party's evaluations, especially their
personality profiles and tendencies in an effort to
determine which parent is more likely to consistently
put M.B.'s best interests first and to give the best
opportunity for both parents to be significantly
involved in his ongoing upbringing.
Plaintiffs score on the MMPI-2
interaction potentials is notable.

parent-child

"The depth or Stefan's parent-to-child bonding
appears adequate to reasonably good. His measures
indicate that he can provide stable bonding and
stable bonding should protect the interests of his son
over time with his love and caring being seen is (sic)
dependable.
Stefan's scores also do not suggest any palticular
tendency to dichotomized (sic) people is (sic) either
being for him or against him. He is not likely to be
especially sensitive as to whether his son's comments

45a
are for or against himself or Veronica. That is, Stefan
may prefer comments favoring himself, but he would
not be unduly quick to jump to the conclusion that
positive comments about the other parent reflected
that parent's efforts to alienate their son from him."
Page 9.
Defendant's score on the MMPI-2 parent-child
interaction potentials is notable.
"The depth of Veronica's parent-to-child bonding
appears likely to be mostly adequate but sometimes
uneven. Observed occasions of positive parent-child
interactions are not a guarantee of unconditional
parental love as an affection hungry child can be
quite responsive to more than usually received care
and attention. At other time, Veronica's personal
interests may have overridden the interests of her
son. Any identifiable past occasion when M.B.'s
attachment might have been dampened or to a degree
turned off in response to less than then- needed
nurturance and protection or possibly some
underlying degree of indifference to her son's welfare
would merit careful consideration. Such "turning off
moments can have adverse effects on her son's long­
term capacity to sustain stable interpersonal bonds.
This estimation of Veronica's capacity for bonding
may need a more careful evaluation because of her
tendency to underreport troubling emotions and
possibly unsocial attitudes.
Veronica's scores do indicate a mild tendency to see
someone or various others as being for her or against
her. Thus, she may be sensitive to her son's
comments that favor his father over her. This in turn

46a
might lead to a perception that her former spouse
was attempting to turn their son against her. Any
efforts to counter this would then tend to have
alienating effects against the other parent. In
summary, if there were any alienating efforts on her
part, they are likely to derive from sincere
perceptions (whether accurate or not) that the biasing
actions of the other spouse needed to be
counterbalanced." Pages 15-16.
As federal employees, both parties have been
subjected to extensive background checks.
6. The parent more likely to honor and
facilitate and re-schedule court- approved
parenting time rights or visitation and
companionship rights. (R.C.§3109.04(F)(l)(f))
and (R.C.§3109.051(D)(10)).
Overall both parties have honored the court
approved parenting time. Plainliff complains, and
validly so, that Defendant does not give her best
effort to facilitate M.B.'s and Plaintiffs SKYPE
contact when M.B. is with her in California. This is
in stark contrast to Plaintiff who thoughtfully plans
out and works hard to assure the Defendant's SKYPE
calls with M.B. are as focused and enjoyable as
possible for both M.B. and the Defendant given his
tender age.
7. Whether either parent has failed to make
all child support payments, including all
arrearages, that are required of that parent
pursuant to a child support order under which

47a
the parent is an obligor (R.C.§3109.04(F)(l)(g)).
Not a factor.
8. Whether either parent or any member of
the household of either parent previously has
been convicted of or pleaded guilty to any
criminal offense involving any act that resulted
in a child being an abused child or a neglected
child; whether either parent, in a case in which
a child has been adjudicated an abused child or
a neglected child, previously has been
determined to be the perpetrator of the abusive
or neglectful act that is the basis of an
adjudication; whether either parent or any
member of the household of either parent
previously has been convicted of or pleaded
guilty to a violation of section 2919.25 of the
Revised Code (domestic violence) or a sexually
oriented offense involving a victim who at the
time of the commission of the offense was a
member of the family or household that is the
subject of the current proceeding; whether
either parent or any member of the household
of either parent previously has been convicted
of or pleaded guilty to any offense involving a
victim who at the time of the commission of the
offense was a member of the family or
household that is the subject of the current
proceeding and caused physical harm to the
victim in the commission of the offense; and
whether there is reason to believe that either
parent has acted in a manner resulting in a
child being an abused child or a neglected
child.
(R.C.§3109.04(F)(l)(h))
and

48a
(R.C.§3109.05.1(D)(11) and (12)).
Not a factor.
Whether the residential parent or
9.
one of the parents subject to a shared parenting
decree has continuously and willfully denied
the other parent’s right to parenting time in
accordance with an order of the Court.
(R.C.§3109.04(F)(l)(i)) and (R.C.§3109.051(D)(13)).
Not a factor.
Whether
either
parent
has
10.
established a residence or is planning to
establish a residence outside this state.
(R.C.§3109.04(F)(l)(j) and RC 109.05.01(D)(14)),
Defendant has established a residence in San
Diego California and has no intention of moving back
to Ohio under any circumstances. Plaintiff remains
in lht: marital home in Dublin, Ohio. The Defendant
is not credible in her testimony that she did not fully
agree to the choice for the parties to purchase their
home in Dublin and to raise their son there or in her
(now) criticism of Plaintiffs long work commute.
Plaintiff has testified that it his intention and desire
to remain living in his current home until M.B. gets
through high school and that he believes this is in
M.B.'s best interest. He has said that although he
does not want to and that he believes it will
negatively affect his career, he will move to San
Diego to be closer to M.B. if the Defendant is named
residential parent. Defendant testified that she

49a

believes it is in M.B.'s best interest for Plaintiff to
move to San Diego. Kathleen Young a vocational
expert hired by the Defendant testified. Although she
had not interviewed or interacted with the Plaintiff,
Ms. Young testified that in her expert opinion there
would be a reasonable opportunity for the Plaintiff to
obtain a job in California albiet not without some
sacrifice of benefits and/or specialization. She
acknowledged that any possibilities may be further
limited due to age discrimination as the Plaintiff
approaches his mid-50s. She admitted the best fit
for his experience and qualifications were outside the
San Diego area and that Edwards Airforce Base is
approximately 3 hours outside of San Diego. Under
such terms, the Plaintiff would still be exercising long
distance parenting.
In determining whether shared parenting is in the
best interest of the children, the court shall consider
all relevant factors including, but not limited to, the
factors enumerated in division (F)(1) of this section,
the factors enumerated in section RC §3119.23
[deviation from Ohio Child Support Guidelines] of the
Revised Code, and all of the following factors:
11. The ability of the parents to cooperate
and make decisions jointly with respect to the
child. (R.C.§3109.04(F)(2)(a)).
Both parents are and have been very deliberate in
the raising of their child. The parents took parenting
classes together before M.B. was born. Both parents
bring with them their own cultural background under
the direct influence of their own respective parents
who have been very hands on in helping each to raise

50a
When the parties were an intact family,
M.B.
Defendant took on many of the primary
responsibilities for M.B. including researching
options for M.B. such as doctor and daycare
arrangements. She would provide the information to
the Plaintiff and they would discuss and attempt to
make mutual joint decisions. However, it is evident
that there was not a lot of "mutual" parenting going
on in the short time that the parties resided together
after M.B. was born. As noted above, Defendant was
very upset that the Plaintiff allowed his and her
family to come after M.B.'s birth against her
expressed wishes. Defendant decided on a course of
action for caring for M.B. which to an extent excluded
the Plaintiff. Defendant did not feel supported by the
Plaintiff. Plaintiff felt alienated by Defendant. The
parties argued often over parenting techniques.
Importantly, it is readily apparent that any ability to
cooperate in joint decision making has been
completely eroded throughout this litigation process.
At this point in time the parties communicate only
through email or text (at Defendant's insistence).
Defendant wishes to further distance herself from the
Plaintiff and requests that all communication be
through My Family Wizard. Defendant will not
answer the telephone if Plaintiff calls. Plaintiff has
consistently demonstrated his willingness to attempt
to communicate and to make joint decisions.
Although Plaintiff remains willing to continue to
make efforts to communicate to make joint decisions
and optimistic that they will be able to do so,
Defendant remains set against it and refuses to make
any effort. Defendant does not believe the parties can
make joint decisions. Defendant's stance on her lack
of willingness to make joint decisions is evidenced as
outlined in detail in her proposed parenting plan.

51a
12. The ability of each parent to encourage
the sharing of love, affection, and contact
between the child and the other parent.
(R.C.§3109.04(F)(2)(b)).
Overall the evidence suggests that Plaintiff is the
parent most cognizant of M.B.'s need to share love,
affection and contact with the other parent. While
there is certainly no loss of love from Plaintiff to
Defendant, Plaintiff overtly encourages a relationship
between Defendant and M.B.. He focuses him in for
quality SKYPE conversations with his mother. He
deliberately prepares him emotionally and physically
for the exchanges between their households in a
positive way. He keeps a picture of mother in M.B.'s
room. He has helped M.B. prepare Valentine's for his
mother and makes sure he says Happy Mother's Day.
On the other hand, it is hard to imagine that
Defendant's overt dislike and distancing from
Plaintiff does not (even if unconsciously) spill over to
M.B. While this trier of fact has tried countless high
conflict divorces and custody disputes, the visceral
anger and negative reaction of Defendant's body
language and voice inflection when talking about the
Plaintiff stands out as memorable. The Defendant did
not include the Plaintiff as a contact when she
enrolled M.B. in daycare in San Diego. Plaintiff
credibly reports that Defendant's actions during the
exchange of M.B. do not indicate that she has
attempted to emotionally prepare him for
transitioning to his father. One cannot help but feel
for this little boy to have two parents that so clearly
do not like each other and who, in fact, cannot stand
to be in the same room together.

52a
13. Any history of, or potential for, child
abuse, spouse abuse, other domestic violence,
or parental kidnapping. (R.C.§3109.04(F)(l)(c)
and RC 3109.051(D)(11).
The interaction of the parties' personalities
resulted in a mutually abusive relationship. The
parties argued often. The evidence is credible that
there was mutual inappropriate verbal exchanges
and inappropriate physical contact during their
arguments. As is consistent with her psychological
testing, the Defendant reacted poorly to the Plaintiff
and says she felt abused by what she perceived as his
constant criticism of her and disparate parenting
styles. There are credible instances where the
Defendant physically struck, kicked or slapped the
Plaintiff. Likewise, on Plaintiffs part. On one
occasion, the Plaintiff kicked the Defendant in a
manner which likely broke her tailbone. It is notable
to this trier of fact that in the reflections on their
relationship, the Plaintiff is able to demonstrate some
self-awareness and is regretful for his actions and
failings during the marriage. There is no sense of the
same from the Defendant.
Neither party has ever been charged with child
abuse, spousal abuse or other domestic violence or
parental kidnapping.
14. The geographic proximity of the parents
to each other as the proximity relates to the
practical considerations of shared parenting
and parenting time. (R.C.§3109.04(F)(2)(d)) and
(R.C.§3109.051(D)(2)).

53a
The geographic distance between these parents in
conjunction with their lack of ability to make joint
decisions makes the concept of shared parenting for
M.B. unworkable.
15.
The
recommendations
of
the
the
child.
Guardian
ad
Litem
of
(R.C.§3109.04(F)(l)(e)).
One of this Court's most experienced and respected
Guardian ad Litems was appointed in this matter.
The Guardian ad Litem filed his report and
recommendations into the record on April 6, 2018.
The Court has carefully reviewed and considered the
report. In general, the Guardian's observations and
assessments of each party and his and her position is
in line with this trier of fact's findings and experience
with the parties.
The Guardian ad Litem recommends that the
current month on month off parenting schedule
remain in place until M.B. matriculates into
Kindergarten and that thereafter, the Plaintiff be
named his residential parent and legal custodian.
The Guardian ad Litem participated throughout and
testified at the final trial in this matter. At the
conclusion of the testimony his recommendation
remained as submitted with one modification - to
extend the Defendant's summer parenting time from
one half the summer to two full months.
16.
The child's and parents 'available
time, including but not limited to, each parent's

54a
employment schedule, the child's school
schedule, and the child's and the parents'
vacation
holiday
and
schedule.
(R.C.§3109.051(D)(3)).
Plaintiff
is
employed
in
Dayton,
Ohio
approximately 60 minutes' drive time away from his
residence and M.B.'s daycare. To some extent,
Plaintiff is able to adjust his start and stop time to
make himself available to M.B. and has arranged for
emergency contacts closer by, if needed.
Defendant is employed by Sparware. This
employment provides her flexibility and is in close
proximity to M.B.'s daycare and future schools.

17. The age of the child. (R.C.§3109.051(D)(4).
M.B. is only three years old.
18. The health and
(R.C.§3109.051(D)(7)).

safety

of the

child.

M.B. appears to be well cared for by both of his
parents. There are no concerns for his physical health
and safety when he is in either parent's care.
Defendant has raised some concerns as to the
Plaintiffs parents' ability to provide for the child's
safety, as a result of the language barriers and not
having a valid Ohio Drivers' license. Plaintiffs
parents are permanent US residents.
Plaintiffs father is or has obtained his Ohio

55a
Drivers' license which should alleviate her concern in
that area. Witnesses testified that there can be some
difficulties in the language barriers when dealing
with Plaintiffs parents they do not seem
insurmountable or placing the child in danger when
in their care.
19. The amount of time that will be available
for the child to spend with siblings.
(R.C.§3109.051(D)(8)).
Not a factor.
20. Whether either parent has established a
residence or is planning to establish a
outside
this
state.
residence
(R.C.§3109.051(D)(14)>.
See Paragraph 10 above.
21. The in-court expressed wishes of the
parents when companionship is requested by a
non-parent. (R.C.§3109.051(D)(15)).
Not a factor.
22. Any other factor in the best interest of
the child. (R.C.§3109.051(D)(16)).
Both parties make financial arguments. Plaintiff
insists that the cost of living in California is higher
and therefore does not justify the salary that

56a
Defen<lanl insisted she needed to make. Defendant
insists her overall cost of living is less than Plaintiffs.
neremlallL insists it would be easier for Plaintiffs
family to travel to California than to Ohio.
Each parent prioritizes his and her employment
over the other's. Much time was spent with Plaintiff
arguing that Defendant could have found
employment in Ohio and Defendant defending her
decisions surrounding the move and arguing that the
Plaintiff could find employment in California. To be
clear, this Court does not find this to be a case where
Plaintiff "tricked" Defendant into moving. Defendant
accepted the position without informing Plaintiff. To
the parties' credit they worked hard to find a mutual
agreement to the situation and were unable to do so.
These included considerations of Plaintiff also moving
to California.
Plaintiff expressed his embarrassment that they
were not able to reach a mutual agreement to keep
this matter out of contested litigation.
Defendant decided to accept the position and to
move before this case was resolved citing concern for
another federal hiring freeze. Although it is evident
that Plaintiff controlled the family household
finances and was very concerned about the parties'
budget while the parties were together, this is not a
case that Defendant had no access to funds or would
have been economically disenfranchised during the
course of the divorce, even if she could not have found
a job she could of availed herself to the court process
in requesting temporary orders of support and/or
assistance with living expenses during the pendency
of the case. She did not. Her arguments are rooted in
her unwavering belief that she is the overall superior

57a
parent for this child. When in reality, both of these
parents are good parents, and each has positive
characteristics to impart to their son.
After careful and thoughtful assessment of all of
the evidence presented, this Court cannot agree that
Defendant's decision to accept a position across the
country from the child's father (where the parents
had made parental decisions to raise their child)
placed the child's best interest above her own career
ambitions. However, this is not and should not be
viewed as the only or even as the deciding factor, as
there are other factors, including but not limited to
the parties' psychological evaluations and as
otherwise noted herein which support this Court's
final determination of M.B.'s best interest.
Given both parties' extended families live abroad,
it is going to be essential that both have the ability to
travel with M.B. to visit their respective families.
23. Shared Parenting and Proposed Shared
Parenting Plans.
Both parties filed proposed parenting plans.
Plaintiff requested shared parenting in his Complaint
and filed a proposed shared parenting plan on August
2, 2018.
Defendant requests to be named legal custodian as
long as the parties live: in Ohio/California, however,
in the event the Plaintiff relocates closer (undefined)
the parties would have "shared legal custody" and
both would be named legal custodian residential

58a
parent with "parallel" parenting rights.
Shared parenting is not in M.B.'s best interest.
G. CHILD SUPPORT
1.

Incomes of the parties.

Plaintiff is employed through the Defense Finance
& ACTG. He currently earns $ [REDACTED] per
year.
Defendant is employed through the Department of
Defense and is currently earning $ [REDACTED] per
year.
2.

Relative earning abilities of the parties.

Both parties are employed to the best of their
earning abilities.
3.

Resident Child Adjustment.

Not a factor.
4. Availability and Cost to maintain the
children on health insurance.
Both parties have health, dental and vision
insurance available to them at a reasonable cost at

59a
approximately the same rates.
As to Plaintiff: The cost differential for health
insurance is $3,760.90. The cost differential for
dental insurance is $225.42. The cost differential for
vision insurance is $173.68. The total is $4,160.
As to Defendant: The cost differential for health
insurance is $3,571.88. The cost differential for
dental insurance is $319.02. The cost differential for
vision insurance is $173.68. The total is $4,064.58.
5.

Work related childcare costs.

Each party incurs work related child care costs.
The Plaintiff has M.B. enrolled at the Gardner
school where the Plaintiff must pay full time tuition,
even though M.B. is gone every thirty days. The
Plaintiff moved M.B. from Mango Place daycare that
did not require full tuition. The current annual cost of
tuition is approximately $14,976 per year.
The Defendant has M.B. enrolled at the Navy
Child and Youth Program at the cost of $7,540 per
year because she does not have to pay when he is not
there.
6. Benefits received by the children due to a
parent's disability.
Not a factor.

60a

7. Child Support Pursuant to the Ohio Child
Support Guidelines.
The Court has prepared the Ohio Child Support
Guideline worksheet which is attached as Decision
Exhibit 1A.
8. Deviation factors: In considering the
appropriate child support obligation in this
case the Court has utilized the factors
enumerated
O.R.C.
§3119.23
and
has
determined that child support pursuant to the
Ohio Child Support Guidelines is unjust,
inappropriate and not in the best interest of the
minor child.
a. Special and unusual
children. R.C. 3119.23(A).

needs

of

the

None noted.
b. Extraordinary obligations for minor
children or obligations for handicapped
children who are not stepchildren and who are
not offspring from the marriage or relationship
that is the basis of the immediate child support
determination. R.C. 3119.23(B).
None noted.
c.

Other

court-ordered

payments.

R.C.

61a
3119.23(C).
Each will have daycare while the child is in his/her
care. Once M.B. is full time in one place, the legal
custodian will bear the entire cost.
Each will pay for his and her own transportation
costs and other costs associated with parenting time
such as lodging, food etc. to exercise parenting time.
The parties will divide M.B.'s transportation costs
50%-50%.
The parties will divide the child's uninsured health
care, dental and vision expenses 50%-50%.
Each party must maintain an Our Family Wizard
account.
parenting
time
or
d. Extended
extraordinary costs associated with parenting
time provided that this division does not
authorize and shall not be construed as
authorizing any deviation from the schedule
and the applicable worksheet, through the line
establishing the actual annual obligation, or
any escrowing, impoundment, or withholding
of child support because of a denial of or
interference with a right of parenting time
granted by court order. R.C. 3119.23(D).
The costs for transportation
parenting can range from

long

distance

62a
$600 to $900 per trip while M.B. is spending 30
days on and 30 days off with each parent. In the
future, there will be similar expenses and in addition,
each parent will incur additional expenses (such as
food and housing) in exercising parenting time with
M.B. while he is with the other parent. The nonresidential parent will likely bear the greater portion
of these expenses.
obligor
obtaining
additional
e. The
employment after a child support order is
issued in order to support a second family. R.C.
3119.23(E).
Not a factor.
f. The financial resources and the earning
ability of the child. R.C. 3119.23(F).
Not a factor.
g. Disparity in income between parties or
households. R.C. 3119.23(G).
There is disparity in incomes between the parties'
households.
h. Benefits that either parent receives from
remarriage or sharing living expenses with
another person. R.C. 3119.23(H).
Not a factor.

63a
i. The amount of federal, state, and local
taxes actually paid or estimated to be paid by a
parent or both of the parents. R.C. 3119.23(1).
Insufficient evidence presented. Plaintiff will be
entitled to claim M.B. for income tax purposes which
should benefit his tax obligations.
j. Significant in-kind contributions from a
parent, including, but not limited to, direct
payment for lessons,
sports
equipment,
schooling, or clothing. R.C. 3119.23(J).
Insufficient evidence presented. Unless otherwise
agreed, each parent shall pay for extracurricular
activities, schooling, clothing, lessons and sports
equipment while M.B. is in his or her care.
k. The relative financial resources, other
assets and resources, and needs of each parent.
R.C. 3119.23(K).
Each party's primary financial resource is his and
her employment.
1. The standard of living and circumstances
of each parent and the standard of living the
child would have enjoyed had the marriage
continued or had the parents been married.
R.C. 3119.23(L).

64a

M.B. will enjoy similar standard of livings in each
parent's home. Both parties presented estimated
budgets.
m. The need and capacity of the child for an
education and the educational opportunities
that would have been available to the child had
the circumstances requiring a court order for
support not arisen. R.C. 3119.23(N).
Not a factor.
n. The responsibility of each parent for the
support of others. R.C. 3119.23(0).
Not a factor.
o. Any other factor in the best interest of
the child. R.C.§3109.05.1(D)(16); any other
relevant factor. R.C. 3119.23(P).
None noted.
III. FINAL ORDERS:
IT IS THEREFORR ORDERED ADJUDGED
AND DECREED
1.

DIVORCE

Each party is granted a divorce from the other.

65a
Each party is relieved from the obligation of the
marriage except as otherwise indicated herein.
2. ALLOCATION OF PARENTAL RIGHTS
AND RESPONSIBLITIES
A. Residential Parent and Legal Custodian:
Plaintiff is named residential parent and legal
custodian for M.B.
B. Parenting Time: Parenting time shall be as
agreed. In the event the parties are unable to agree:
Unless otherwise agreed, pursuant to the
temporary orders of this Court which are
incorporated herein, the parents' alternate 30-day
schedule shall continue uninterrupted through the
last day of the last 30-day period exercised by
Defendant in calendar year 2019 before December 1,
2019. Thereafter from that date until January 1,
2020, the remaining period of time shall be
approximately equally divided between the parties as
agreed between the parties to be no longer than a 16day period with Plaintiff exercising the first block of
time. (For example, if Defendant's last day of the last
30-day period exercised by Defendant is November
30, Plaintiff would have until December 15 and
Defendant would have from December 15 through
December 31). This is to assure that neither parent
has the child for more than thirty consecutive days
and that Defendant has holiday time with the child
before the onset of the 2020 schedule outlined below.
The party commencing their parenting time shall
travel and pay for all costs of the exchange. If the

66a
transition time occurs on a weekday, the parties shall
exchange the child on the weekend day closest to the
thirty-day mark.
Effective thereafter,
pursuant to Franklin
(excepting Paragraphs 3
distances over 90 miles
2B).

parenting time shall be
County Local Rule 27.1
and 8) for parents traveling
(Attached Decision Exhibit

Effective 2020, Defendant shall have the child
every spring break vacation, the day after the child is
out to the day before school recommences.
Effective 2020 and even years thereafter, which
ever parent did not have the child for Christmas
Eve/Christmas 2019 shall have the first half of
Christmas break and the other shall have the second
half. In odd numbered years the schedule shall be
reversed.
The party commencing their parenting time shall
travel and pay for all costs of the exchange and
parenting time except that the parties shall equally
divide M.B.'s direct transportation costs (i.e. airfare
or gasoline) which will be advanced paid by the
traveling parent and then submitted to OFW for
reimbursement.
In the event the parents move within 90 miles of
each other, parenting time shall be pursuant to
Franklin County Local Rule 27.1, for parents
traveling under 90 miles, Option A.

67a
Any parenting time under this order shall be
subject to M.B.'s extracurricular activities and he
shall attend/participate in same uninterrupted
during either parent's in-state visits. Each parent
shall carefully avoid the scheduling or arranging of
activities for the child which are likely to significantly
conflict with time allocated to the other parent.
Absent agreement, Plaintiff shall not schedule any
extracurricular activities during Defendant's summer
parenting time. If any of M.B.'s scheduled
extracurricular activities "spill over" into Defendant's
summer parenting time he will not be expected to
participate. The parent exercising time with M.B.
shall be responsible for insuring M.B. attends
ongoing activities.
C.

Passport and Travel:

Both parents shall be entitled to travel with M.B.
so long as they provide a written itinerary (including
destination, dates and times of arrival(s) and
departure(s), method of travel (airline and flight
numbers if air travel is used), address and telephone
number at the location to which they are traveling) at
least 60 days in advance of travel to the other parent.
Travel outside the continental United States shall be
no more than 14 days unless otherwise agreed to by
the parties. The child's passport shall be maintained
with the Plaintiff except during requests by
Defendant to travel as indicated herein. Failure to
cooperate in the exchange of the child's passport may
revoke a parent's ability to travel outside of the
continental United States.
D. Notifications

about

M.B.

and

68a
Communication through My Family Wizard:
Each parent shall keep the other advised as to all
major decisions concerning M.B. prior to finalizing
any decision. Plaintiff as legal custodian will make
major decisions regarding M.B. but shall not do so
until seeking input from Defendant. Each parent may
make the routine day to day decisions and emergency
decisions regarding M.B. when he is in his or her
care.
Parents shall use Our Family Wizard (OFW),
including calendar, expense log, and information
bank. Each parent shall be responsible for the cost of
his and her separate accounts and shall set up those
accounts properly within 14 days of this order. Each
shall renew annually. Thereafter, the parents shall
post all communication exclusively on OFW. They
shall not communicate outside of OFW except
regarding matters of true emergency regarding the
child or small details that must be acted upon
immediately (defined as less than 24 hours), if
possible text messaging shall be used. In the rare
situation where the parents do have the need to use
telephone communication regarding the minor child,
or use email, or some other form of communication
the substance of that communication shall be
on
OFW
immediately
confirmed/documented
thereafter or it will be deemed not to have been
agreed upon at all if there is a later dispute. No
communication is anticipated or permitted between
the parents regarding any matter other than the
child.
The parents shall convey information through the

69a

Calendar, Info, Bank, and Expense features offered in
OFW whenever possible. If additional clarifications or
details are needed, an OFW message will be sent
promptly, and the response will be posted on OFW.
Attachments will be made in OFW when appropriate
(i.e. details about a sports team or extracurricular
activity; discharge paperwork from a medical visit,
report cards, etc.)
All major activities and/or appointments shall be
added to the OFW calendar within 24 hours of
scheduling by the scheduling parent. Or upon
learning of an activity or appointment made by
someone else, that information will be added to the
OFW calendar by the first parent who learns of it. If
an entry requires a response by the other parent, that
parent shall respond as promptly as possible unless it
is clear from the entry itself that a longer response
time is acceptable.
Each parent shall keep the other informed of
his/her current address and telephone number at all
times. Both parents shall at all times, regardless of
whether the child is with him/her, provide the other
parent with a telephone number for contact in the
event of an emergency.
E. Emergency Decisions: Each parent is
authorized to approve and authorize emergency
medical, surgical, hospital, dental, vision and mental
health care for the minor child. The parent with
whom M.B. is with at the time of an emergency shall
promptly notify the other parent as soon as is
practical and each shall have the right to access to
the child during said emergency, regardless of the

70a
parenting schedule.
F.

Communication with M.B.:

M.B. can communicate with either parent as often
as he wishes, at reasonable times and frequencies,
via telephone or electronic means, (e.g. text, email,
SKYPE, FaceTime).
The non-possessory parent shall be able to speak
with the child by telephone/SKYPE no less than three
times each week for a minimum of fifteen minutes
and neither parent shall hamper or interfere with the
telephone
communication
or
any
other
communication between the child and the parent.
G. Mandatory Notice Provisions:
RELOCATION NOTICE: Pursuant to Ohio
Revised Code Section 3109.051(G), the parties hereto
are hereby notified as follows:
IF THE RESIDENTIAL PARENT INTENDS
TO MOVE TO A RESIDENCE OTHER THAN
THE
RESIDENCE
SPECIFIED
IN
THE
PARENTING TIME ORDER OR DECREE OF
THE COURT, THE RESIDENTIAL PARENT
SHALL FILE A NOTICE OF INTENT TO
RELOCATE WITH THIS COURT, ADDRESSED
TO THE ATTENTION OF THE RELOCATION
OFFICER. UNLESS OTHERWISE ORDERED
PURSUANT
TO
O.R.C.
SECTIONS
3109.051(G)(2), (3), AND (4), A COPY OF SUCH

71a

NOTICE SHALL BE MAILED BY THE COURT
TO THE PARENT WHO IS NOT THE
RESIDENTIAL PARENT. UPON RECEIPT OF
THE NOTICE, THE COURT, ON ITS OWN
MOTION OR THE MOTION OF EITHER
PARTY, MAY SCHEDULE A HEARING WITH
NOTICE TO BOTH PARTIES TO DETERMINE
WHETHER IT IS IN THE BEST INTEREST OF
THE CHILD TO REVISE THE PARENTING
TIME SCHEDULE.
RECORDS ACCESS NOTICE: Pursuant
to
Ohio Revised Code Sections 3109.051(H) and
3319.321(B)(5)(a) the parties hereto are hereby
notified as follows:
EXCEPTING AS SPECIFICALLY MODIFIED
OR
OTHERWISE
LIMITED
BY COURT
ORDER, AND SUBJECT TO O.R.C. SECTIONS
3125.16 AND 3319.321(F), THE PARENT WHO IS
NOT THE
RESIDENTIAL
PARENT,
IS
ENTITLED TO ACCESS TO ANY RECORD
THAT IS RELATED TO THE CHILD, UNDER
THE SAME TERMS AND CONDITIONS AS THE
RESIDENTIAL PARENT, AND TO WHICH SAID
RESIDENTIAL
PARENT
IS
LEGALLY
PROVIDED ACCESS. ANY KEEPER OF A
RECORD WHO KNOWINGLY FAILS TO
COMPLY WITH
THIS
ORDER
IS
IN
CONTEMPT OF COURT.
DAY CARE CENTER ACCESS NOTICE:
Pursuant to Ohio Revised Code Section 3109.051(1),
the parties hereto are hereby notified as follows:

72a

EXCEPTING AS SPECIFICALLY MODIFIED
OR OTHERWISE LIMITED BY COURT
ORDER, AND IN ACCORDANCE WITH O.R.C.
SECTION 5104.011, THE PARENT WHO IS NOT
THE RESIDENTIAL PARENT, IS ENTITLED TO
ACCESS TO ANY DAY CARE CENTER THAT IS
OR WILL BE ATTENDED BY THE CHILD
TIME IS
WITH WHOM PARENTING
GRANTED, TO THE SAME EXTENT THAT THE
RESIDENTIAL PARENT, IS GRANTED ACCESS
TO THE CENTER.
NOTICE:
SCHOOL
ACTIVITIES
Pursuant to Ohio Revised Code Section
3109.051(J), the parties hereto are hereby
notified as follows:
EXCEPTING AS SPECIFICALLY MODIFIED
OR
OTHERWISE
LIMITED
BY COURT
ORDER, AND SUBJECT TO O.R.C. SECTION
3319.321(F), THE PARF.NT WHO IS NOT THE
RESIDENTIAL PARENT, IS ENTITLED TO
ACCESS, UNDER THE SAME TERMS AND
CONDITIONS AS THE RESIDENTIAL PARENT,
TO ANY STUDENT ACTIVITY THAT IS
RELATED TO THE CHILD AND TO WHICH
THE RESIDENTIAL PARENT OF THE CHILD
LEGALLY IS PROVIDED ACCESS. ANY
SCHOOL EMPLOYEE OR OFFICIAL WHO
KNOWINGLY FAILS TO COMPLY WITH THIS
ORDER IS IN CONTEMPT OF COURT.
All required notices shall be sent to:

73a
Clerk of Courts
Division of Domestic Relations
Franklin County Courthouse
373 South High Street
Columbus, Ohio 43215
Franklin County Child Support Enforcement
Agency
80 East Fulton Street
Columbus, Ohio 43215
H. Child Support
For so long as private health insurance is available
at a reasonable cost, the Defendant shall pay to the
Plaintiff, as and for child support the sum of $0 per
month, plus 2% processing charge. At such time as
health insurance is not available at a reasonable cost,
the Defendant shall pay child support in the amount
of $0 per month, plus 2% processing charge and
$126.25, plus 2% processing charge for cash medical
support. This is a deviation from the Ohio Child
Support Guidelines.
Child support payments, plus the two percent (2%)
processing charge, shall be made by withholding or
deducting from the income or assets of the obligor
pursuant to a withholding or deduction notice or
appropriate court order issued in accordance with
R.C. §3113.21 or a withdrawal directive issued

74a
pursuant to R.C. §3113.214 and shall be forwarded to
the obligee in accordance with R.C. §3113.21 to
§3113.213. The payments shall be made through the
Ohio Child Support Payment Central, P.O. Box
182372, Columbus, Ohio 43218-2372. The child
support amount plus the two percent (2%) processing
charge shall be paid through wage withholding
consistent with the obligor's normal payroll periods.
The payments shall continue until the occurrence
of one of the following events, whichever event occurs
first:
1. The child's attainment of the age of
majority if the child no longer attends an accredited
high school on a full-time basis and the child support
order requires support to continue past the age of
majority only if the child continuously attends such a
high school after attaining that age;
2. The child ceasing to attend an accredited high
school on a full-time basis after attaining the age of
majority, if the child support order requires support
to continue past the age of majority only if the child
continuously attends such a high school
after
attaining that age;
3.

The child's death;

4.

The child's marriage;

5.

The child's emancipation;

6.

The child's enlistment in the armed services;

7.

The child's deportation; or

8.

Change of legal custody of the child.

It is further ordered:

75a
If the obligor is ordered to pay cash medical
support under this support order, the obligor shall
begin payment of any cash medical support on the
first day of the month immediately following the
month in which private health insurance coverage is
unavailable or terminates and shall cease payment
on the last day of the month immediately preceding
the month in which private health insurance
coverage begins or resumes. During the period when
cash medical support is required to be paid, the
obligor or obligee must immediately inform the Child
Support Enforcement Agency that health insurance
coverage for the children has become available.
The amount of cash medical support paid by the
obligor shall be paid during any period after the
Court or Child Support Enforcement Agency issues or
modifies the order in which the children are not
covered by private health insurance.
Any cash medical support paid pursuant to this
order shall be paid by the obligor to either the obligee
if the children are not Medicaid recipients, or to the
office of child support to defray the cost of Medicaid
expenditures if the children are Medicaid recipients.
Enforcement
Agency
The
Child
Support
administering the court or administrative order shall
amend the amount of monthly child support
obligation to reflect the amount paid when private
health insurance is not provided, as calculated in the
current order pursuant to section 3119.022 or
3119.023 of the Revised Code, as applicable.

76a
The Child Support Enforcement Agency shall give
the obligor notice in accordance with Chapter 3121. of
the Revised Code and provide the obligor an
opportunity to be heard if the obligor believes there is
a mistake of fact regarding the availability of private
health insurance at a reasonable cost as determined
under division (B) of this section.

EACH PARTY TO THIS SUPPORT ORDER
MUST NOTIFY THE CHILD SUPPORT
ENFORCEMENT AGENCY IN WRITING OF HIS
OR HER CURRENT MAILING ADDRESS,
CURRENT RESIDENCE ADDRESS, CURRENT
NUMBER,
RESIDENCE
TELEPHONE
CURRENT DRIVER'S LICENSE NUMBER, AND
OF ANY CHANGES IN THAT INFORMATION.
EACH PARTY MUST NOTIFY THE AGENCY OF
ALL CHANGES UNTIL FURTHER NOTICE
FROM THE COURT OR AGENCY, WHICHEVER
ISSUED THE SUPPORT ORDER. IF YOU ARE
THE OBLIGOR UNDER A CHILD SUPPORT
ORDER AND YOU FAIL TO MAKE THE
REQUIRED NOTIFICATIONS, YOU MAY BE
FINED UP TO $50 FOR A FIRST OFFENSE,
$100 FOR A SECOND OFFENSE, AND $500 FOR
EACH SUBSEQUF.NT OFFENSE. IF YOU ARE
AN OBLIGOR OR OBLIGEE UNDER ANY
SUPPORT ORDER ISSUED BY A COURT AND
YOU WILLFULLY FAIL TO GIVE THE
REQUIRED NOTICES, YOU MAY BE FOUND IN
CONTF.MPT OF COURT AND BE SUBJECTED
TO FINES UP TO $1000 AND IMPRISONMENT
FOR NOT MORE THAN 90 DAYS.

77a

IF YOU ARE AN OBLIGOR AND YOU FAIL
TO GIVE THE REQUIRED NOTICES, YOU MAY
NOT RECEIVE NOTICE OF THE FOLLOWING
ENFORCEMENT ACTIONS AGAINST YOU:
IMPOSITION OF LIENS AGAINST YOUR
PROPERTY; LOSS OF YOUR PROFESSIONAL
OR OCCUPATIONAL LICENSE, DRIVER'S
LICENSE, OR RECREATIONAL LICENSE;
WITHHOLDING
FROM
YOUR
INCOME;
ACCESS RESTRICTION AND DEDUCTION
FROM YOUR ACCOUNTS IN FINANCIAL
INSTITUTIONS; AND ANY OTHER ACTION
PERMITTED BY LAW TO OBTAIN MONEY
FROM YOU TO SATISFY YOUR SUPPORT
OBLIGATION.
The residential parent or the person who
otherwise has custody of a child for whom a
support order is issued is also ordered to
immediately notify, and the obligor under a
support order may notify, the Franklin County
Child Support Enforcement Agency of any
reason for which the support order should
terminate, including but not limited to, the
child's attainment of the age of majority if the
child no longer attends an accredited high
school on a full-time basis and
the child
support order requires support to continue
past the age of majority only if the child
continuously attends such a high school after
attaining that age; the child ceasing to attend
an accredited high school on a full-time basis
after attaining the age of majority, if the child
support order requires support to continue
past the age of majority only if the child
continuously attends such a high school after

78a
attaining that age; or the death, marriage,
emancipation,
enlistment
in the armed
services, deportation, or change of legal
custody of the child.
All support under this order shall be
withheld or deducted from the income or
assets of the obligor pursuant to a withholding
or deduction notice or
appropriate order
issued in accordance with chapters 3119., 3121.,
3123., and 3125. of the Revised Code or a
to
withdrawal directive issued pursuant
sections 3123.24 to 3123.38 of the Revised Code
and shall be forwarded to the obligee in
accordance with chapters 3119., 3121., 3123.,
and 3125. of the Revised Code.
Regardless of the frequency or amount of
support payments to be made under the order,
the
Franklin
County
Child
Support
Enforcement Agency shall administer it on a
monthly basis in accordance with sections
3121.51 to 3121.54 of the Revised Code.
Payments under the order are to be made in a
manner ordered by the court or agency, and if
the payments are to be made other than on a
monthly
the
required
monthly
basis,
administration by the agency does not affect
the frequency or the amount of the support
payments to be made under the order.
All payments must have the obligor's name
and case number and should be mailed to Ohio

79a
CSPC, P.O. Box 182372, Columbus, Ohio, 432182372.

I. Medical Insurance and Uninsured health
care expenses
For so long as it is available to him at a reasonable
cost, the Plaintiff shall maintain current levels of
medical, dental and vision insurance for the minor
child. Plaintiff shall provide Defendant with health
insurance cards and forms necessary to receive
reimbursement, payments, or other benefits under
the health insurance coverage and an updated
summary plan description of the health plan(s). etc.
Except as prevented by an emergency, unless
otherwise agreed, the parents shall use only approved
plan providers; take required steps to secure the
available insurance coverage benefits and comply
with any plan requirements regarding pre-approval
for treatment or care. In the event of cancellation of
coverage, the Plaintiff shall immediately notify the
Defendant.
The parties shall divide any and all uninsured
ordinary and extraordinary health care costs incurred
for the child 50% as to the Plaintiff and 50% as to the
Defendant. The parents shall provide one another
written proof of payment of medical expenses by
posting them on OFW within sixty (60) days of the
payment of, or incurring, said expenses (whichever is
earlier). Whenever possible, each parent shall pay
their portion of the expense directly to the service
provider or vendor. If a payment plan is needed, each
parent shall communicate directly with the provider

80a
to arrange payment, and shall provide details of said
arrangements to the other.
If direct payment to the vendor or service provider
is not possible, or impractical, and one parent is
required to reimburse the other he/she shall
reimburse the other within thirty (30) days of
receiving proof of payment of the expense as posted in
OFW.
Both parents shall fully cooperate in the prompt
exchange of documentation and information
necessary for each parent to receive reimbursement,
payments, or other benefits under the health
insurance coverage. Additionally, the parents shall
promptly exchange all documentation verifying any
uninsured health care-related expenses incurred for
the child, and each parent shall promptly reimburse
the other parent as set forth above.
J. Work related child care: Each shall pay any
work-related child care costs incurred by him or her.
K. Extracurricular activities: The parties shall
consult (through OFW) regarding the enrollment of
M.B. in extracurricular activities, prior to discussing
same with M.B. and before enrolling him in same.
Unless otherwise agreed, the parent who enrolls him
in extracurricular activities shall bear the cost.
L. Tax dependency exemption: The Plaintiff
shall be entitled to claim the minor child for all
income tax purposes. The Defendant shall cooperate
as necessary to assure this occurs.

81a
3.

ASSETS AND LIABILTIES

The Plaintiff is awarded [REDACTED]
A.
free and clear of any claim by the Defendant. The
Plaintiff shall pay and save the Defendant harmless
as to any and all debt associated with this real estate.
Defendant shall transfer any and all interest she may
have in said real estate to the Plaintiff by way of Quit
Claim Deed forthwith.
B.
The
Defendant
is
awarded
[REDACTED] free and clear of claim by the Plaintiff.
The Defendant shall pay and save the Plaintiff
harmless as to any and all debt associated with this
real estate. Plaintiff shall transfer any and all
interest he may have in said real estate to the
Defendant by way of Quit Claim Deed forthwith.
Plaintiff is awarded the 2010 VW Passat
C.
free and clear of any claim by the Defendant. Plaintiff
shall pay and hold the Defendant harmless as to any
and all debt associated with this vehicle. Defendant is
awarded the 2003 Toyota Corolla, free and clear of
claim by the Plaintiff and she shall pay and save the
Plaintiff harmless from any and all debt associated
with this vehicle.
Each party is awarded any household
D.
goods, furnishings and personal property in his and
her respective possession, free and clear of any claim
by the other.
E.
Each party shall retain any and all
checking and savings accounts in his or her

82a
individual name, free and clear of any claim by the
other.
The
Plaintiff
is
awarded
his
F.
[REDACTED], free and clear of any claim by the
Defendant.
The
Defendant is
awarded her
G.
[REDACTED], free and clear of any claim by the
Plaintiff.
H.
[REDACTED].
The
parties
shall
cooperate to assure the distribution of this account to
each of them forthwith and shall equally pay any
costs associated with the preparation of a QDRO, if
necessary.
Each party shall pay and hold the other
I.
harmless from any and all debt in his or her
individual name or incurred by her.
Defendant to pay and hold the Plaintiff
J.
harmless as to any and all student loans in his name.

4.

SPOUSAL SUPPORT:

Neither party shall pay spousal support to the
other. The Court shall not retain jurisdiction to
modify this order.
5.

RESTORATION OF FORMER NAME:

83a
Defendant is restored to her former name of
[REDACTED],

6.

RELEASE OF RESTRAINING ORDERS:

All restraining orders are hereby vacated.
7.

GUARDIAN AD LITEM FEES:

The parties shall divide the Guardian ad Litem
fees and expenses, 50% as to Plaintiff and 50% as to
Defendant. Unless otherwise agreed to by the
Guardian ad Litem, he shall be paid in full within 45
days of this Decree.
8.

CIVIL RULE 70 COMPLIANCE:

Unless otherwise indicated herein, this Decree is
subject to Civil Rule 70 compliance. Each party shall
transfer any, and interest to any, property in his or
her possession, title, or name, to the other party
within 30 days of this Order.
9.

ATTORNEY FEES/COSTS:

The parties stipulated that each party shall pay his
and her attorney fees and costs associated with this
action.

84a

10. RELEASE OF RESTRAINING ORDERS
Except as otherwise ordered herein, the Temporary
Restraining Orders are hereby VACATED.
11. COURT COSTS:
The parties shall equally divide the balance of
court costs, if any.

IT IS SO ORDERED.

s/ Judge Elizabeth Gill
Judge Elizabeth Gill

Praecipe: To the Clerk of Courts
Pursuant to Civil Rule 58(8), you are here by
instructed to serve upon all parties not in
default for failure to appear notice of the
judgment and its date of entry upon the journal
in the manner prescribed by the attached
instructions for service.
cc:
Catalin Stefan Badescu

85a
Jacqueline Kemp, Esq.
Vernoica Badescu
Karen Ball, Esq.
Ralph Silvestri, Esq.

86a
APPENDIX C

®fje Supreme Court of <©f)to
Catalin S. Badescu
v.

Case No. 2020-1270
ENTRY

Veronica V. Badescu

Upon consideration of the jurisdictional
memoranda filed in this case, the court declines to
accept jurisdiction of the appeal pursuant to
S.Ct.Prac.R. 7.08(B)(4).
(Franklin County Court of Appeals; No. 18AP-947)

s/ Maureen O'Connor
Maureen O'Connor
Chief Justice

The Official Case Announcement can be found at
http ://www. supremecourt. ohio. gov/ROD/docs/

87a
APPENDIX D
SECTION 3109.03 | EQUALITY OF PARENTAL
RIGHTS AND RESPONSIBILITIES.
Ohio Revised Code/Title 31 Domestic RelationsChildren/Chapter 3109 Children

When husband and wife are living separate and
apart from each other, or are divorced, and the
question as to the parental rights and responsibilities
for the care of their children and the place of
residence and legal custodian of their children is
brought before a court of competent jurisdiction, they
shall stand upon an equality as to the parental rights
and responsibilities for the care of their children and
the place of residence and legal custodian of their
children, so far as parenthood is involved.

88a
APPENDIX E
SECTION 3109.04 | ALLOCATING PARENTAL
RIGHTS AND RESPONSIBILITIES FOR CARE
OF CHILDREN - SHARED PARENTING.
Ohio Revised Code/Title 31 Domestic RelationsChildren/Chapter 3109 Children

(A) In any divorce, legal separation, or annulment
proceeding and in any proceeding pertaining to the
allocation of parental rights and responsibilities for
the care of a child, upon hearing the testimony of
either or both parents and considering any mediation
report filed pursuant to section 3109.052 of the
Revised Code and in accordance with sections
3127.01 to 3127.53 of the Revised Code, the court
shall allocate the parental rights and responsibilities
for the care of the minor children of the marriage.
Subject to division (D)(2) of this section, the court
may allocate the parental rights and responsibilities
for the care of the children in either of the following
ways:
(1) If neither parent files a pleading or motion in
accordance with division (G) of this section, if at least
one parent files a pleading or motion under that
division but no parent who filed a pleading or motion
under that division also files a plan for shared
parenting, or if at least one parent files both a
pleading or motion and a shared parenting plan
under that division but no plan for shared parenting
is in the best interest of the children, the court, in a

89a
manner consistent with the best interest of the
children, shall allocate the parental rights and
responsibilities for the care of the children primarily
to one of the parents, designate that parent as the
residential parent and the legal custodian of the
child, and divide between the parents the other rights
and responsibilities for the care of the children,
including, but not limited to, the responsibility to
provide support for the children and the right of the
parent who is not the residential parent to have
continuing contact with the children.
(2) If at least one parent files a pleading or motion in
accordance with division (G) of this section and a
plan for shared parenting pursuant to that division
and if a plan for shared parenting is in the best
interest of the children and is approved by the court
in accordance with division (D)(1) of this section, the
court may allocate the parental rights and
responsibilities for the care of the children to both
parents and issue a shared parenting order requiring
the parents to share all or some of the aspects of the
physical and legal care of the children in accordance
with the approved plan for shared parenting. If the
court issues a shared parenting order under this
division and it is necessary for the purpose of
receiving public assistance, the court shall designate
which one of the parents' residences is to serve as the
child's home. The child support obligations of the
parents under a shared parenting order issued under
this division shall be determined in accordance with
Chapters 3119., 3121., 3123., and 3125. of the
Revised Code.
(B)(1) When making the allocation of the parental

90a
rights and responsibilities for the care of the children
under this section in an original proceeding or in any
proceeding for modification of a prior order of the
court making the allocation, the court shall take into
account that which would be in the best interest of
the children. In determining the child's best interest
for purposes of making its allocation of the parental
rights and responsibilities for the care of the child
and for purposes of resolving any issues related to the
making of that allocation, the court, in its discretion,
may and, upon the request of either party, shall
interview in chambers any or all of the involved
children regarding their wishes and concerns with
respect to the allocation.
(2) If the court interviews any child pursuant to
division (B)(1) of this section, all of the following
apply:
(a) The court, in its discretion, may and, upon the
motion of either parent, shall appoint a guardian ad
litem for the child.
(b) The court first shall determine the reasoning
ability of the child. If the court determines that the
child does not have sufficient reasoning ability to
express the child's wishes and concern with respect to
the allocation of parental rights and responsibilities
for the care of the child, it shall not determine the
child's wishes and concerns with respect to the
allocation. If the court determines that the child has
sufficient reasoning ability to express the child's
wishes or concerns with respect to the allocation, it
then shall determine whether, because of special
circumstances, it would not be in the best interest of

91a

the child to determine the child's wishes and
concerns with respect to the allocation. If the court
determines that, because of special circumstances, it
would not be in the best interest of the child to
determine the child's wishes and concerns with
respect to the allocation, it shall not determine the
child's wishes and concerns with respect to the
allocation and shall enter its written findings of fact
and opinion in the journal. If the court determines
that it would be in the best interests of the child to
determine the child's wishes and concerns with
respect to the allocation, it shall proceed to make that
determination.
(c) The interview shall be conducted in chambers,
and no person other than the child, the child's
attorney, the judge, any necessary court personnel,
and, in the judge's discretion, the attorney of each
parent shall be permitted to be present in the
chambers during the interview.
(3) No person shall obtain or attempt to obtain from a
child a written or recorded statement or affidavit
setting forth the child's wishes and concerns
regarding the allocation of parental rights and
responsibilities concerning the child. No court, in
determining the child's best interest for purposes of
making its allocation of the parental rights and
responsibilities for the care of the child or for
purposes of resolving any issues related to the
making of that allocation, shall accept or consider a
written or recorded statement or affidavit that
purports to set forth the child's wishes and concerns
regarding those matters.

92a
(C) Prior to trial, the court may cause an
investigation to be made as to the character, family
relations, past conduct, earning ability, and financial
worth of each parent and may order the parents and
their minor children to submit to medical,
psychological, and psychiatric examinations. The
report of the investigation and examinations shall be
made available to either parent or the parent's
counsel of record not less than five days before trial,
upon written request. The report shall be signed by
the investigator, and the investigator shall be subject
to cross-examination by either parent concerning the
contents of the report. The court may tax as costs all
or any part of the expenses for each investigation.
If the court determines that either parent previously
has been convicted of or pleaded guilty to any
criminal offense involving any act that resulted in a
child being a neglected child, that either parent
previously has been determined to be the perpetrator
of the neglectful act that is the basis of an
adjudication that a child is a neglected child, or that
there is reason to believe that either parent has acted
in a manner resulting in a child being a neglected
child, the court shall consider that fact against
naming that parent the residential parent and
against granting a shared parenting decree. When
the
court
allocates
parental
rights
and
responsibilities for the care of children or determines
whether to grant shared parenting in any proceeding,
it shall consider whether either parent or any
member of the household of either parent has been
convicted of or pleaded guilty to a violation of section
2919.25 of the Revised Code or a sexually oriented
offense involving a victim who at the time of the
commission of the offense was a member of the family

93a
or household that is the subject of the proceeding, has
been convicted of or pleaded guilty to any sexually
oriented offense or other offense involving a victim
who at the time of the commission of the offense was
a member of the family or household that is the
subject of the proceeding and caused physical harm
to the victim in the commission of the offense, or has
been determined to be the perpetrator of the abusive
act that is the basis of an adjudication that a child is
an abused child. If the court determines that either
parent has been convicted of or pleaded guilty to a
violation of section 2919.25 of the Revised Code or a
sexually oriented offense involving a victim who at
the time of the commission of the offense was a
member of the family or household that is the subject
of the proceeding, has been convicted of or pleaded
guilty to any sexually oriented offense or other
offense involving a victim who at the time of the
commission of the offense was a member of the family
or household that is the subject of the proceeding and
caused physical harm to the victim in the commission
of the offense, or has been determined to be the
perpetrator of the abusive act that is the basis of an
adjudication that a child is an abused child, it may
designate that parent as the residential parent and
may issue a shared parenting decree or order only if
it determines that it is in the best interest of the
child to name that parent the residential parent or to
issue a shared parenting decree or order and it
makes specific written findings of fact to support its
determination.
(D)(1)(a) Upon the filing of a pleading or motion by
either parent or both parents, in accordance with
division (G) of this section, requesting shared
parenting and the filing of a shared parenting plan in

94a
accordance with that division, the court shall comply
with division (D)(l)(a)(i), (ii), or (iii) of this section,
whichever is applicable:
(i) If both parents jointly make the request in their
pleadings or jointly file the motion and also jointly
file the plan, the court shall review the parents' plan
to determine if it is in the best interest of the
children. If the court determines that the plan is in
the best interest of the children, the court shall
approve it. If the court determines that the plan or
any part of the plan is not in the best interest of the
children, the court shall require the parents to make
appropriate changes to the plan to meet the court's
objections to it. If changes to the plan are made to
meet the court's objections, and if the new plan is in
the best interest of the children, the court shall
approve the plan. If changes to the plan are not made
to meet the court's objections, or if the parents
attempt to make changes to the plan to meet the
court's objections, but the court determines that the
new plan or any part of the new plan still is not in
the best interest of the children, the court may reject
the portion of the parents' pleadings or deny their
motion requesting shared parenting of the children
and proceed as if the request in the pleadings or the
motion had not been made. The court shall not
approve a plan under this division unless it
determines that the plan is in the best interest of the
children.
(ii) If each parent makes a request in the parent's
pleadings or files a motion and each also files a
separate plan, the court shall review each plan filed
to determine if either is in the best interest of the

95a
children. If the court determines that one of the filed
plans is in the best interest of the children, the court
may approve the plan. If the court determines that
neither filed plan is in the best interest of the
children, the court may order each parent to submit
appropriate changes to the parent's plan or both of
the filed plans to meet the court's objections, or may
select one of the filed plans and order each parent to
submit appropriate changes to the selected plan to
meet the court's objections. If changes to the plan or
plans are submitted to meet the court's objections,
and if any of the filed plans with the changes is in the
best interest Of the children, the court may approve
the plan with the changes. If changes to the plan or
plans are not submitted to meet the court's
objections, or if the parents submit changes to the
plan or plans to meet the court's objections but the
court determines that none of the filed plans with the
submitted changes is in the best interest of the
children, the court may reject the portion of the
parents' pleadings or deny their motions requesting
shared parenting of the children and proceed as if the
requests in the pleadings or the motions had not been
made. If the court approves a plan under this
division, either as originally filed or with submitted
changes, or if the court rejects the portion of the
parents' pleadings or denies their motions requesting
shared parenting under this division and proceeds as
if the requests in the pleadings or the motions had
not been made, the court shall enter in the record of
the case findings of fact and conclusions of law as to
the reasons for the approval or the rejection or
denial. Division (D)(1)(b) of this section applies in
relation to the approval or disapproval of a plan
under this division.

96a
(iii) If each parent makes a request in the parent's
pleadings or files a motion but only one parent files a
plan, or if only one parent makes a request in the
parent's pleadings or files a motion and also files a
plan, the court in the best interest of the children
may order the other parent to file a plan for shared
parenting in accordance with division (G) of this
section. The court shall review each plan filed to
determine if any plan is in the best interest of the
children. If the court determines that one of the filed
plans is in the best interest of the children, the court
may approve the plan. If the court determines that no
filed plan is in the best interest of the children, the
court may order each parent to submit appropriate
changes to the parent's plan or both of the filed plans
to meet the court's objections or may select one filed
plan and order each parent to submit appropriate
changes to the selected plan to meet the court's
objections. If changes to the plan or plans are
submitted to meet the court's objections, and if any of
the filed plans with the changes is in the best interest
of the children, the court may approve the plan with
the changes. If changes to the plan or plans are not
submitted to meet the court's objections, or if the
parents submit changes to the plan or plans to meet
the court's objections but the court determines that
none of the filed plans with the submitted changes is
in the best interest of the children, the court may
reject the portion of the parents' pleadings or deny
the parents' motion or reject the portion of the
parents' pleadings or deny their motions requesting
shared parenting of the children and proceed as if the
request or requests or the motion or motions had not
been made. If the court approves a plan under this
division, either as originally filed or with submitted
changes, or if the court rejects the portion of the

97a
pleadings or denies the motion or motions requesting
shared parenting under this division and proceeds as
if the request or requests or the motion or motions
had not been made, the court shall enter in the
record of the case findings of fact and conclusions of
law as to the reasons for the approval or the rejection
or denial. Division (D)(1)(b) of this section applies in
relation to the approval or disapproval of a plan
under this division.
(b) The approval of a plan under division (D)(l)(a)(ii)
or (iii) of this section is discretionary with the court.
The court shall not approve more than one plan
under either division and shall not approve a plan
under either division unless it determines that the
plan is in the best interest of the children. If the
court, under either division, does not determine that
any filed plan or any filed plan with submitted
changes is in the best interest of the children, the
court shall not approve any plan.
(c) Whenever possible, the court shall require that a
shared parenting plan approved under division
(D)(l)(a)(i), (ii), or (iii) of this section ensure the
opportunity for both parents to have frequent and
continuing contact with the child, unless frequent
and continuing contact with any parent would not be
in the best interest of the child.
(d) If a court approves a shared parenting plan under
division (D)(l)(a)(i), (ii), or (iii) of this section, the
approved plan shall be incorporated into a final
shared parenting decree granting the parents the
shared parenting of the children. Any final shared
parenting decree shall be issued at the same time as

98a
and shall be appended to the final decree of
dissolution, divorce, annulment, or legal separation
arising out of the action out of which the question of
the allocation of parental rights and responsibilities
for the care of the children arose.
No provisional shared parenting decree shall be
issued in relation to any shared parenting plan
approved under division (D)(l)(a)(i), (ii), or (iii) of this
section. A final shared parenting decree issued under
this division has immediate effect as a final decree on
the date of its issuance, subject to modification or
termination as authorized by this section.
(2) If the court finds, with respect to any child under
eighteen years of age, that it is in the best interest of
the child for neither parent to be designated the
residential parent and legal custodian of the child, it
may commit the child to a relative of the child or
certify a copy of its findings, together with as much of
the record and the further information, in narrative
form or otherwise, that it considers necessary or as
the juvenile court requests, to the juvenile court for
further proceedings, and, upon the certification, the
juvenile court has exclusive jurisdiction.
(E)(1)(a) The court shall not modify a prior decree
allocating parental rights and responsibilities for the
care of children unless it finds, based on facts that
have arisen since the prior decree or that were
unknown to the court at the time of the prior decree,
that a change has occurred in the circumstances of
the child, the child's residential parent, or either of
the parents subject to a shared parenting decree, and
that the modification is necessary to serve the best

99a
interest of the child. In applying these standards, the
court shall retain the residential parent designated
by the prior decree or the prior shared parenting
decree, unless a modification is in the best interest of
the child and one of the following applies:
(i) The residential parent agrees to a change in the
residential parent or both parents under a shared
parenting decree agree to a change in the designation
of residential parent.
(ii) The child, with the consent of the residential
parent or of both parents under a shared parenting
decree, has been integrated into the family of the
person seeking to become the residential parent.
(iii) The harm likely to be caused by a change of
environment is outweighed by the advantages of the
change of environment to the child.
(b) One or both of the parents under a prior decree
allocating parental rights and responsibilities for the
care of children that is not a shared parenting decree
may file a motion requesting that the prior decree be
modified to give both parents shared rights and
responsibilities for the care of the children. The
motion shall include both a request for modification
of the prior decree and a request for a shared
parenting order that complies with division (G) of
this section. Upon the filing of the motion, if the court
determines that a modification of the prior decree is
authorized under division (E)(1)(a) of this section, the
court may modify the prior decree to grant a shared
parenting order, provided that the court shall not

100a
modify the prior decree to grant a shared parenting
order unless the court complies with divisions (A) and
(D)(1) of this section and, in accordance with those
divisions, approves the submitted shared parenting
plan and determines that shared parenting would be
in the best interest of the children.
(2) In addition to a modification authorized under
division (E)(1) of this section:
(a) Both parents under a shared parenting decree
jointly may modify the terms of the plan for shared
parenting approved by the court and incorporated by
it into the shared parenting decree. Modifications
under this division may be made at any time. The
modifications to the plan shall be filed jointly by both
parents with the court, and the court shall include
them in the plan, unless they are not in the best
interest of the children. If the modifications are not
in the best interests of the children, the court, in its
discretion, may reject the modifications or make
modifications to the proposed modifications or the
plan that are in the best interest of the children.
Modifications jointly submitted by both parents
under a shared parenting decree shall be effective,
either as originally filed or as modified by the court,
upon their inclusion by the court in the plan.
Modifications to the plan made by the court shall be
effective upon their inclusion by the court in the plan.
(b) The court may modify the terms of the plan for
shared parenting approved by the court and
incorporated by it into the shared parenting decree
upon its own motion at any time if the court
determines that the modifications are in the best

101a

interest of the children or upon the request of one or
both of the parents under the decree. Modifications
under this division may be made at any time. The
court shall not make any modification to the plan
under this division, unless the modification is in the
best interest of the children.
(c) The court may terminate a prior final shared
parenting decree that includes a shared parenting
plan approved under division (D)(l)(a)(i) of this
section upon the request of one or both of the parents
or whenever it determines that shared parenting is
not in the best interest of the children. The court may
terminate a prior final shared parenting decree that
includes a shared parenting plan approved under
division (D)(l)(a)(ii) or (iii) of this section if it
determines, upon its own motion or upon the request
of one or both parents, that shared parenting is not in
the best interest of the children. If modification of the
terms of the plan for shared parenting approved by
the court and incorporated by it into the final shared
parenting decree is attempted under division
(E)(2)(a) of this section and the court rejects the
modifications, it may terminate the final shared
parenting decree if it determines that shared
parenting is not in the best interest of the children.
(d) Upon the termination of a prior final shared
parenting decree under division (E)(2)(c) of this
section, the court shall proceed and issue a modified
decree for the allocation of parental rights and
responsibilities for the care of the children under the
standards applicable under divisions (A), (B), and (C)
of this section as if no decree for shared parenting
had been granted and as if no request for shared

102a

parenting ever had been made.
(F)(1) In determining the best interest of a child
pursuant to this section, whether on an original
decree allocating parental rights and responsibilities
for the care of children or a modification of a decree
allocating those rights and responsibilities, the court
shall consider all relevant factors, including, but not
limited to:
(a) The wishes of the child's parents regarding the
child's care;
(b) If the court has interviewed the child in chambers
pursuant to division (B) of this section regarding the
child's wishes and concerns as to the allocation of
parental rights and responsibilities concerning the
child, the wishes and concerns of the child, as
expressed to the court;
(c) The child's interaction and interrelationship with
the child's parents, siblings, and any other person
who may significantly affect the child's best interest;
(d) The child's adjustment to the child's home, school,
and community;
(e) The mental and physical health of all persons
involved in the situation;
(f) The parent more likely to honor and facilitate
court-approved parenting time rights or visitation
and companionship rights;

103a
(g) Whether either parent has failed to make all child
support payments, including all arrearages, that are
required of that parent pursuant to a child support
order under which that parent is an obligor;
(h) Whether either parent or any member of the
household of either parent previously has been
convicted of or pleaded guilty to any criminal offense
involving any act that resulted in a child being an
abused child or a neglected child; whether either
parent, in a case in which a child has been
adjudicated an abused child or a neglected child,
previously has been determined to be the perpetrator
of the abusive or neglectful act that is the basis of an
adjudication; whether either parent or any member of
the household of either parent previously has been
convicted of or pleaded guilty to a violation of section
2919.25 of the Revised Code or a sexually oriented
offense involving a victim who at the time of the
commission of the offense was a member of the family
or household that is the subject of the current
proceeding; whether either parent or any member of
the household of either parent previously has been
convicted of or pleaded guilty to any offense involving
a victim who at the time of the commission of the
offense was a member of the family or household that
is the subject of the current proceeding and caused
physical harm to the victim in the commission of the
offense; and whether there is reason to believe that
either parent has acted in a manner resulting in a
child being an abused child or a neglected child;
(i) Whether the residential parent or one of the
parents subject to a shared parenting decree has

104a
continuously and willfully denied the other parent's
right to parenting time in accordance with an order of
the court;
(j) Whether either parent has established a residence,
or is planning to establish a residence, outside this
state.
(2) In determining whether shared parenting is in
the best interest of the children, the court shall
consider all relevant factors, including, but not
limited to, the factors enumerated in division (F)(1) of
this section, the factors enumerated in section
3119.23 of the Revised Code, and all of the following
factors:
(a) The ability of the parents to cooperate and make
decisions jointly, with respect to the children;
(b) The ability of each parent to encourage the
sharing of love, affection, and contact between the
child and the other parent;
(c) Any history of, or potential for, child abuse, spouse
abuse, other domestic violence, or parental
kidnapping by either parent;
(d) The geographic proximity of the parents to each
other, as the proximity relates to the practical
considerations of shared parenting;
(e) The recommendation of the guardian ad litem of
the child, if the child has a guardian ad litem.

105a
(3)
When
allocating
parental
rights
and
responsibilities for the care of children, the court
shall not give preference to a parent because of that
parent's financial status or condition.
(G) Either parent or both parents of any children
may file a pleading or motion with the court
requesting the court to grant both parents shared
parental rights and responsibilities for the care of the
children in a proceeding held pursuant to division (A)
of this section. If a pleading or motion requesting
shared parenting is filed, the parent or parents filing
the pleading or motion also shall file with the court a
plan for the exercise of shared parenting by both
parents. If each parent files a pleading or motion
requesting shared parenting but only one parent files
a plan or if only one parent files a pleading or motion
requesting shared parenting and also files a plan, the
other parent as ordered by the court shall file with
the court a plan for the exercise of shared parenting
by both parents. The plan for shared parenting shall
be filed with the petition for dissolution of marriage,
if the question of parental rights and responsibilities
for the care of the children arises out of an action for
dissolution of marriage, or, in other cases, at a time
at least thirty days prior to the hearing on the issue
of the parental rights and responsibilities for the care
of the children. A plan for shared parenting shall
include provisions covering all factors that are
relevant to the care of the children, including, but not
limited to, provisions covering factors such as
physical living arrangements,
child
support
obligations, provision for the children's medical and
dental care, school placement, and the parent with
which the children will be physically located during

106a
legal holidays, school holidays, and other days of
special importance.
(H) If an appeal is taken from a decision of a court
that grants or modifies a decree allocating parental
rights and responsibilities for the care of children,
the court of appeals shall give the case calendar
priority and handle it expeditiously.
(I)(l) Upon receipt of an order for active military
service in the uniformed services, a parent who is
subject to an order allocating parental rights and
responsibilities or in relation to whom an action to
allocate parental rights and responsibilities is
pending and who is ordered for active military service
shall notify the other parent who is subject to the
order or in relation to whom the case is pending of
the order for active military service within three days
of receiving the military service order.
(2) On receipt of the notice described in division (I)(l)
of this section, either parent may apply to the court
for a hearing to expedite an allocation or modification
proceeding so that the court can issue an order before
the parent's active military service begins. The
application shall include the date on which the active
military service begins.
The court shall schedule a hearing upon receipt of
the application and hold the hearing not later than
thirty days after receipt of the application, except
that the court shall give the case calendar priority
and handle the case expeditiously if exigent
circumstances exist in the case.

107a
The court shall not modify a prior decree allocating
parental rights and responsibilities unless the court
determines that there has been a change in
circumstances of the child, the child's residential
parent, or either of the parents subject to a shared
parenting decree, and that modification is necessary
to serve the best interest of the child. The court shall
not find past, present, or possible future active
military service in the uniformed services to
constitute a change in circumstances justifying
modification of a prior decree pursuant to division (E)
of this section. The court shall make specific written
findings of fact to support any modification under
this division.
(3) Nothing in division (I) of this section shall prevent
a court from issuing a temporary order allocating or
modifying parental rights and responsibilities for the
duration of the parent's active military service. A
temporary order shall specify whether the parent's
active military service is the basis of the order and
shall provide for termination of the temporary order
and resumption of the prior order within ten days
after receipt of notice pursuant to division (I) (5) of
this section, unless the other parent demonstrates
that resumption of the prior order is not in the child's
best interest.
(4) At the request of a parent who is ordered for
active military service in the uniformed services and
who is a subject of a proceeding pertaining to a
temporary order for the allocation or modification of
parental rights and responsibilities, the court shall
permit the parent to participate in the proceeding

108a
and present evidence by electronic means, including
communication by telephone, video, or internet to the
extent permitted by the rules of the supreme court of
Ohio.
(5) A parent who is ordered for active military service
in the uniformed services and who is a subject of a
proceeding pertaining to the
allocation or
modification of parental rights and responsibilities
shall provide written notice to the court, child
support enforcement agency, and the other parent of
the date of termination of the parent's active military
service not later than thirty days after the date on
which the service ends.
(J) As used in this section:
(1) "Abused child" has the same meaning as in
section 2151.031 of the Revised Code.
(2) "Active military service" means service by a
member of the uniformed services in compliance with
military orders to report for combat operations,
contingency operations, peacekeeping operations, a
remote tour of duty, or other active service for which
the member is required to report unaccompanied by
any family member, including any period of illness,
recovery from injury, leave, or other lawful absence
during that operation, duty, or service.
(3) "Neglected child" has the same meaning as in
section 2151.03 of the Revised Code.

109a
(4) "Sexually oriented offense" has the same meaning
as in section 2950.01 of the Revised Code.
(5) "Uniformed services" means the United States
armed forces, the army national guard, and the air
national guard or any reserve component thereof, or
the commissioned corps of the United States public
health service.
(K) As used in the Revised Code, "shared parenting"
means that the parents share, in the manner set
forth in the plan for shared parenting that is
approved by the court under division (D)(1) and
described in division (L)(6) of this section, all or some
of the aspects of physical and legal care of their
children.
(L) For purposes of the Revised Code:
(1) A parent who is granted the care, custody, and
control of a child under an order that was issued
pursuant to this section prior to April 11, 1991, and
that does not provide for shared parenting has
"custody of the child" and "care, custody, and control
of the child" under the order, and is the "residential
parent," the "residential parent and legal custodian,"
or the "custodial parent" of the child under the order.
(2) A parent who primarily is allocated the parental
rights and responsibilities for the care of a child and
who is designated as the residential parent and legal
custodian of the child under an order that is issued
pursuant to this section on or after April 11, 1991,
and that does not provide for shared parenting has

110a
"custody of the child" and "care, custody, and control
of the child" under the order, and is the "residential
parent," the "residential parent and legal custodian,"
or the "custodial parent" of the child under the order.
(3) A parent who is not granted custody of a child
under an order that was issued pursuant to this
section prior to April 11, 1991, and that does not
provide for shared parenting is the "parent who is not
the residential parent," the "parent who is not the
residential parent and legal custodian," or the
"noncustodial parent" of the child under the order.
(4) A parent who is not primarily allocated the
parental rights and responsibilities for the care of a
child and who is not designated as the residential
parent and legal custodian of the child under an
order that is issued pursuant to this section on or
after April 11, 1991, and that does not provide for
shared parenting is the "parent who is not the
residential parent," the "parent who is not the
residential parent and legal custodian," or the
"noncustodial parent" of the child under the order.
(5) Unless the context clearly requires otherwise, if
an order is issued by a court pursuant to this section
and the order provides for shared parenting of a
child, both parents have "custody of the child" or
"care, custody, and control of the child" under the
order, to the extent and in the manner specified in
the order.
(6) Unless the context clearly requires otherwise and
except as otherwise provided in the order, if an order

111a

is issued by a court pursuant to this section and the
order provides for shared parenting of a child, each
parent, regardless of where the child is physically
located or with whom the child is residing at a
particular point in time, as specified in the order, is
the "residential parent," the "residential parent and
legal custodian," or the "custodial parent" of the
child.
(7) Unless the context clearly requires otherwise and
except as otherwise provided in the order, a
designation in the order of a parent as the residential
parent for the purpose of determining the school the
child attends, as the custodial parent for purposes of
claiming the child as a dependent pursuant to section
152(e) of the "Internal Revenue Code of 1986," 100
Stat. 2085, 26 U.S.C.A. 1, as amended, or as the
residential parent for purposes of receiving public
assistance pursuant to division (A)(2) of this section,
does not affect the designation pursuant to division
(L)(6) of this section of each parent as the "residential
parent," the "residential parent and legal custodian,"
or the "custodial parent" of the child.
(M) The court shall require each parent of a child to
file an affidavit attesting as to whether the parent,
and the members of the parent's household, have
been convicted of or pleaded guilty to any of the
offenses identified in divisions (C) and (F)(1)(h) of
this section.

112a

APPENDIX F
SECTION 3109.051 | PARENTING TIME COMPANIONSHIP OR VISITATION RIGHTS.
Ohio Revised Code/Title 31 Domestic RelationsChildren/Chapter 3109 Children

(A) If a divorce, dissolution, legal separation, or
annulment proceeding involves a child and if the
court has not issued a shared parenting decree, the
court shall consider any mediation report filed
pursuant to section 3109.052 of the Revised Code
and, in accordance with division (C) of this section,
shall make a just and reasonable order or decree
permitting each parent who is not the residential
parent to have parenting time with the child at the
time and under the conditions that the court directs,
unless the court determines that it would not be in
the best interest of the child to permit that parent to
have parenting time with the child and includes in
the journal its findings of fact and conclusions of law.
Whenever possible, the order or decree permitting
the parenting time shall ensure the opportunity for
both parents to have frequent and continuing contact
with the child, unless frequent and continuing
contact by either parent with the child would not be
in the best interest of the child. The court shall
include in its final decree a specific schedule of
parenting time for that parent. Except as provided in
division (E)(6) of section 3113.31 of the Revised Code,
if the court, pursuant to this section, grants
parenting time to a parent or companionship or
visitation rights to any other person with respect to

113a
any child, it shall not require the public children
services agency to provide supervision of or other
services related to that parent's exercise of parenting
time or that person's exercise of companionship or
visitation rights with respect to the child. This
section does not limit the power of a juvenile court
pursuant to Chapter 2151. of the Revised Code to
issue orders with respect to children who are alleged
to be abused, neglected, or dependent children or to
make dispositions of children who are adjudicated
abused, neglected, or dependent children or of a
common pleas court to issue orders pursuant to
section 3113.31 of the Revised Code.
(B)(1) In a divorce, dissolution of marriage, legal
separation, annulment, or child support proceeding
that involves a child, the court may grant reasonable
companionship
or visitation rights to
any
grandparent, any person related to the child by
consanguinity or affinity, or any other person other
than a parent, if all of the following apply:
(a) The grandparent, relative, or other person files a
motion with the court seeking companionship or
visitation rights.
(b) The court determines that the grandparent,
relative, or other person has an interest in the
welfare of the child.
(c) The court determines that the granting of the
companionship or visitation rights is in the best
interest of the child.

114a
(2) A motion may be filed under division (B)(1) of this
section during the pendency of the divorce,
dissolution of marriage, legal separation, annulment,
or child support proceeding or, if a motion was not
filed at that time or was filed at that time and the
circumstances in the case have changed, at any time
after a decree or final order is issued in the case.
(C) When determining whether to grant parenting
time rights to a parent pursuant to this section or
section 3109.12 of the Revised Code or to grant
companionship or visitation rights to a grandparent,
relative, or other person pursuant to this section or
section 3109.11 or 3109.12 of the Revised Code, when
establishing a specific parenting time or visitation
schedule, and when determining other parenting
time matters under this section or section 3109.12 of
the Revised Code or visitation matters under this
section or section 3109.11 or 3109.12 of the Revised
Code, the court shall consider any mediation report
that is filed pursuant to section 3109.052 of the
Revised Code and shall consider all other relevant
factors, including, but not limited to, all of the factors
listed in division (D) of this section. In considering
the factors listed in division (D) of this section for
purposes of determining whether to grant parenting
time or visitation rights, establishing a specific
parenting time or visitation schedule, determining
other parenting time matters under this section or
section 3109.12 of the Revised Code or visitation
matters under this section or under section 3109.11
or 3109.12 of the Revised Code, and resolving any
issues related to the making of any determination
with respect to parenting time or visitation rights or
the establishment of any specific parenting time or
visitation schedule, the court, in its discretion, may

115a
interview in chambers any or all involved children
regarding their wishes and concerns. If the court
interviews any child concerning the child's wishes
and concerns regarding those parenting time or
visitation matters, the interview shall be conducted
in chambers, and no person other than the child, the
child's attorney, the judge, any necessary court
personnel, and, in the judge's discretion, the attorney
of each parent shall be permitted to be present in the
chambers during the interview. No person shall
obtain or attempt to obtain from a child a written or
recorded statement or affidavit setting forth the
wishes and concerns of the child regarding those
parenting time or visitation matters. A court, in
considering the factors listed in division (D) of this
section for purposes of determining whether to grant
any parenting time or visitation rights, establishing a
parenting time or visitation schedule, determining
other parenting time matters under this section or
section 3109.12 of the Revised Code or visitation
matters under this section or under section 3109.11
or 3109.12 of the Revised Code, or resolving any
issues related to the making of any determination
with respect to parenting time or visitation rights or
the establishment of any specific parenting time or
visitation schedule, shall not accept or consider a
written or recorded statement or affidavit that
purports to set forth the child's wishes or concerns
regarding those parenting time or visitation matters.
(D) In determining whether to grant parenting time
to a parent pursuant to this section or section
3109.12 of the Revised Code or companionship or
visitation rights to a grandparent, relative, or other
person pursuant to this section or section 3109.11 or
3109.12 of the Revised Code, in establishing a specific

116a
parenting time or visitation schedule, and in
determining other parenting time matters under this
section or section 3109.12 of the Revised Code or
visitation matters under this section or section
3109.11 or 3109.12 of the Revised Code, the court
shall consider all of the following factors:
(1) The prior interaction and interrelationships of the
child with the child's parents, siblings, and other
persons related by consanguinity or affinity, and with
the person who requested companionship or
visitation if that person is not a parent, sibling, or
relative of the child;
(2) The geographical location of the residence of each
parent and the distance between those residences,
and if the person is not a parent, the geographical
location of that person's residence and the distance
between that person's residence and the child's
residence;
(3) The child's and parents' available time, including,
but not limited to, each parent's employment
schedule, the child's school schedule, and the child's
and the parents' holiday and vacation schedule;
(4) The age of the child;
(5) The child's adjustment to home, school, and
community;
(6) If the court has interviewed the child in
chambers, pursuant to division (C) of this section,

117a
regarding the wishes and concerns of the child as to
parenting time by the parent who is not the
residential parent or companionship or visitation by
the grandparent, relative, or other person who
requested companionship or visitation, as to a
specific parenting time or visitation schedule, or as to
other parenting time or visitation matters, the wishes
and concerns of the child, as expressed to the court;
(7) The health and safety of the child;
(8) The amount of time that will be available for the
child to spend with siblings;
(9) The mental and physical health of all parties;
(10) Each parent's willingness to reschedule missed
parenting time and to facilitate the other parent's
parenting time rights, and with respect to a person
who requested companionship or visitation, the
willingness of that person to reschedule missed
visitation;
(11) In relation to parenting time, whether either
parent previously has been convicted of or pleaded
guilty to any criminal offense involving any act that
resulted in a child being an abused child or a
neglected child; whether either parent, in a case in
which a child has been adjudicated an abused child or
a neglected child, previously has been determined to
be the perpetrator of the abusive or neglectful act
that is the basis of the adjudication; and whether
there is reason to believe that either parent has acted
in a manner resulting in a child being an abused

118a
child or a neglected child;
(12) In relation to requested companionship or
visitation by a person other than a parent, whether
the person previously has been convicted of or
pleaded guilty to any criminal offense involving any
act that resulted in a child being an abused child or a
neglected child; whether the person, in a case in
which a child has been adjudicated an abused child or
a neglected child, previously has been determined to
be the perpetrator of the abusive or neglectful act
that is the basis of the adjudication; whether either
parent previously has been convicted of or pleaded
guilty to a violation of section 2919.25 of the Revised
Code involving a victim who at the time of the
commission of the offense was a member of the family
or household that is the subject of the current
proceeding; whether either parent previously has
been convicted of an offense involving a victim who at
the time of the commission of the offense was a
member of the family or household that is the subject
of the current proceeding and caused physical harm
to the victim in the commission of the offense; and
whether there is reason to believe that the person
has acted in a manner resulting in a child being an
abused child or a neglected child;
(13) Whether the residential parent or one of the
parents subject to a shared parenting decree has
continuously and willfully denied the other parent's
right to parenting time in accordance with an order of
the court;
(14) Whether either parent has established a
residence or is planning to establish a residence

119a
outside this state;
(15) In relation to requested companionship or
visitation by a person other than a parent, the wishes
and concerns of the child's parents, as expressed by
them to the court;
(16) Any other factor in the best interest of the child.
(E) The remarriage of a residential parent of a child
does not affect the authority of a court under this
section to grant parenting time rights with respect to
the child to the parent who is not the residential
parent or to grant reasonable companionship or
visitation rights with respect to the child to any
grandparent, any person related by consanguinity or
affinity, or any other person.
(F)(1) If the court, pursuant to division (A) of this
section, denies parenting time to a parent who is not
the residential parent or denies a motion for
reasonable companionship or visitation rights filed
under division (B) of this section and the parent or
movant files a written request for findings of fact and
conclusions of law, the court shall state in writing its
findings of fact and conclusions of law in accordance
with Civil Rule 52.
(2) On or before July 1, 1991, each court of common
pleas, by rule, shall adopt standard parenting time
guidelines. A court shall have discretion to deviate
from its standard parenting time guidelines based
upon factors set forth in division (D) of this section.

120a
(G)(1) If the residential parent intends to move to a
residence other than the residence specified in the
parenting time order or decree of the court, the
parent shall file a notice of intent to relocate with the
court that issued the order or decree. Except as
provided in divisions (G)(2), (3), and (4) of this
section, the court shall send a copy of the notice to
the parent who is not the residential parent. Upon
receipt of the notice, the court, on its own motion or
the motion of the parent who is not the residential
parent, may schedule a hearing with notice to both
parents to determine whether it is in the best
interest of the child to revise the parenting time
schedule for the child.
(2) When a court grants parenting time rights to a
parent who is not the residential parent, the court
shall determine whether that parent has been
convicted of or pleaded guilty to a violation of section
2919.25 of the Revised Code involving a victim who
at the time of the commission of the offense was a
member of the family or household that is the subject
of the proceeding, has been convicted of or pleaded
guilty to any other offense involving a victim who at
the time of the commission of the offense was a
member of the family or household that is the subject
of the proceeding and caused physical harm to the
victim in the commission of the offense, or has been
determined to be the perpetrator of the abusive act
that is the basis of an adjudication that a child is an
abused child. If the court determines that that parent
has not been so convicted and has not been
determined to be the perpetrator of an abusive act
that is the basis of a child abuse adjudication, the
court shall issue an order stating that a copy of any

121a
notice of relocation that is filed with the court
pursuant to division (G)(1) of this section will be sent
to the parent who is given the parenting time rights
in accordance with division (G)(1) of this section.
If the court determines that the parent who is
granted the parenting time rights has been convicted
of or pleaded guilty to a violation of section 2919.25 of
the Revised Code involving a victim who at the time
of the commission of the offense was a member of the
family or household that is the subject of the
proceeding, has been convicted of or pleaded guilty to
any other offense involving a victim who at the time
of the commission of the offense was a member of the
family or household that is the subject of the
proceeding and caused physical harm to the victim in
the commission of the offense, or has been
determined to be the perpetrator of the abusive act
that is the basis of an adjudication that a child is an
abused child, it shall issue an order stating that that
parent will not be given a copy of any notice of
relocation that is filed with the court pursuant to
division (G)(1) of this section unless the court
determines that it is in the best interest of the
children to give that parent a copy of the notice of
relocation, issues an order stating that that parent
will be given a copy of any notice of relocation filed
pursuant to division (G)(1) of this section, and issues
specific written findings of fact in support of its
determination.
(3) If a court, prior to April 11, 1991, issued an order
granting parenting time rights to a parent who is not
the residential parent and did not require the
residential parent in that order to give the parent

122a
who is granted the parenting time rights notice of
any change of address and if the residential parent
files a notice of relocation pursuant to division (G)(1)
of this section, the court shall determine if the parent
who is granted the parenting time rights has been
convicted of or pleaded guilty to a violation of section
2919.25 of the Revised Code involving a victim who
at the time of the commission of the offense was a
member of the family or household that is the subject
of the proceeding, has been convicted of or pleaded
guilty to any other offense involving a victim who at
the time of the commission of the offense was a
member of the family or household that is the subject
of the proceeding and caused physical harm to the
victim in the commission of the offense, or has been
determined to be the perpetrator of the abusive act
that is the basis of an adjudication that a child is an
abused child. If the court determines that the parent
who is granted the parenting time rights has not
been so convicted and has not been determined to be
the perpetrator of an abusive act that is the basis of a
child abuse adjudication, the court shall issue an
order stating that a copy of any notice of relocation
that is filed with the court pursuant to division (G)(1)
of this section will be sent to the parent who is
granted parenting time rights in accordance with
division (G)(1) of this section.
If the court determines that the parent who is
granted the parenting time rights has been convicted
of or pleaded guilty to a violation of section 2919.25 of
the Revised Code involving a victim who at the time
of the commission of the offense was a member of the
family or household that is the subject of the
proceeding, has been convicted of or pleaded guilty to
any other offense involving a victim who at the time

123a
of the commission of the offense was a member of the
family or household that is the subject of the
proceeding and caused physical harm to the victim in
the commission of the offense, or has been
determined to be the perpetrator of the abusive act
that is the basis of an adjudication that a child is an
abused child, it shall issue an order stating that that
parent will not be given a copy of any notice of
relocation that is filed with the court pursuant to
division (G)(1) of this section unless the court
determines that it is in the best interest of the
children to give that parent a copy of the notice of
relocation, issues an order stating that that parent
will be given a copy of any notice of relocation filed
pursuant to division (G)(1) of this section, and issues
specific written findings of fact in support of its
determination.
(4) If a parent who is granted parenting time rights
pursuant to this section or any other section of the
Revised Code is authorized by an order issued
pursuant to this section or any other court order to
receive a copy of any notice of relocation that is filed
pursuant to division (G)(1) of this section or pursuant
to court order, if the residential parent intends to
move to a residence other than the residence address
specified in the parenting time order, and if the
residential parent does not want the parent who is
granted the parenting time rights to receive a copy of
the relocation notice because the parent with
parenting time rights has been convicted of or
pleaded guilty to a violation of section 2919.25 of the
Revised Code involving a victim who at the time of
the commission of the offense was a member of the
family or household that is the subject of the
proceeding, has been convicted of or pleaded guilty to

124a
any other offense involving a victim who at the time
of the commission of the offense was a member of the
family or household that is the subject of the
proceeding and caused physical harm to the victim in
the commission of the offense, or has been
determined to be the perpetrator of the abusive act
that is the basis of an adjudication that a child is an
abused child, the residential parent may file a motion
with the court requesting that the parent who is
granted the parenting time rights not receive a copy
of any notice of relocation. Upon the filing of the
motion, the court shall schedule a hearing on the
motion and give both parents notice of the date, time,
and location of the hearing. If the court determines
that the parent who is granted the parenting time
rights has been so convicted or has been determined
to be the perpetrator of an abusive act that is the
basis of a child abuse adjudication, the court shall
issue an order stating that the parent who is granted
the parenting time rights will not be given a copy of
any notice of relocation that is filed with the court
pursuant to division (G)(1) of this section or that the
residential parent is no longer required to give that
parent a copy of any notice of relocation unless the
court determines that it is in the best interest of the
children to give that parent a copy of the notice of
relocation, issues an order stating that that parent
will be given a copy of any notice of relocation filed
pursuant to division (G)(1) of this section, and issues
specific written findings of fact in support of its
determination. If it does not so find, it shall dismiss
the motion.
(H)(1) Subject to section 3125.16 and division (F) of
section 3319.321 of the Revised Code, a parent of a
child who is not the residential parent of the child is

125a
entitled to access, under the same terms and
conditions under which access is provided to the
residential parent, to any record that is related to the
child and to which the residential parent of the child
legally is provided access, unless the court
determines that it would not be in the best interest of
the child for the parent who is not the residential
parent to have access to the records under those
same terms and conditions. If the court determines
that the parent of a child who is not the residential
parent should not have access to records related to
the child under the same terms and conditions as
provided for the residential parent, the court shall
specify the terms and conditions under which the
parent who is not the residential parent is to have
access to those records, shall enter its written
findings of facts and opinion in the journal, and shall
issue an order containing the terms and conditions to
both the residential parent and the parent of the
child who is not the residential parent. The court
shall include in every order issued pursuant to this
division notice that any keeper of a record who
knowingly fails to comply with the order or division
(H) of this section is in contempt of court.
(2) Subject to section 3125.16 and division (F) of
section 3319.321 of the Revised Code, subsequent to
the issuance of an order under division (H)(1) of this
section, the keeper of any record that is related to a
particular child and to which the residential parent
legally is provided access shall permit the parent of
the child who is not the residential parent to have
access to the record under the same terms and
conditions under which access is provided to the
residential parent, unless the residential parent has
presented the keeper of the record with a copy of an

126a
order issued under division (H)(1) of this section that
limits the terms and conditions under which the
parent who is not the residential parent is to have
access to records pertaining to the child and the order
pertains to the record in question. If the residential
parent presents the keeper of the record with a copy
of that type of order, the keeper of the record shall
permit the parent who is not the residential parent to
have access to the record only in accordance with the
most recent order that has been issued pursuant to
division (H)(1) of this section and presented to the
keeper by the residential parent or the parent who is
not the residential parent. Any keeper of any record
who knowingly fails to comply with division (H) of
this section or with any order issued pursuant to
division (H)(1) of this section is in contempt of court.
(3) The prosecuting attorney of any county may file a
complaint with the court of common pleas of that
county requesting the court to issue a protective
order preventing the disclosure pursuant to division
(H)(1) or (2) of this section of any confidential law
enforcement investigatory record. The court shall
schedule a hearing on the motion and give notice of
the date, time, and location of the hearing to all
parties.
(I) A court that issues a parenting time order or
decree pursuant to this section or section 3109.12 of
the Revised Code shall determine whether the parent
granted the right of parenting time is to be permitted
access, in accordance with section 5104.039 of the
Revised Code, to any child day-care center that is, or
that in the future may be, attended by the children
with whom the right of parenting time is granted.

127a
Unless the court determines that the parent who is
not the residential parent should not have access to
the center to the same extent that the residential
parent is granted access to the center, the parent who
is not the residential parent and who is granted
parenting time rights is entitled to access to the
center to the same extent that the residential parent
is granted access to the center. If the court
determines that the parent who is not the residential
parent should not have access to the center to the
same extent that the residential parent is granted
such access under section 5104.039 of the Revised
Code, the court shall specify the terms and conditions
under which the parent who is not the residential
parent is to have access to the center, provided that
the access shall not be greater than the access that is
provided to the residential parent under section
5104.039 of the Revised Code, the court shall enter
its written findings of fact and opinions in the
journal, and the court shall include the terms and
conditions of access in the parenting time order or
decree.
(J)(l) Subject to division (F) of section 3319.321 of the
Revised Code, when a court issues an order or decree
allocating parental rights and responsibilities for the
care of a child, the parent of the child who is not the
residential parent of the child is entitled to access,
under the same terms and conditions under which
access is provided to the residential parent, to any
student activity that is related to the child and to
which the residential parent of the child legally is
provided access, unless the court determines that it
would not be in the best interest of the child to grant
the parent who is not the residential parent access to
the student activities under those same terms and

128a
conditions. If the court determines that the parent of
the child who is not the residential parent should not
have access to any student activity that is related to
the child under the same terms and conditions as
provided for the residential parent, the court shall
specify the terms and conditions under which the
parent who is not the residential parent is to have
access to those student activities, shall enter its
written findings of facts and opinion in the journal,
and shall issue an order containing the terms and
conditions to both the residential parent and the
parent of the child who is not the residential parent.
The court shall include in every order issued
pursuant to this division notice that any school
official or employee who knowingly fails to comply
with the order or division (J) of this section is in
contempt of court.
(2) Subject to division (F) of section 3319.321 of the
Revised Code, subsequent to the issuance of an order
under division (J)(l) of this section, all school officials
and employees shall permit the parent of the child
who is not the residential parent to have access to
any student activity under the same terms and
conditions under which access is provided to the
residential parent of the child, unless the residential
parent has presented the school official or employee,
the board of education of the school, or the governing
body of the chartered nonpublic school with a copy of
an order issued under division (J)(l) of this section
that limits the terms and conditions under which the
parent who is not the residential parent is to have
access to student activities related to the child and
the order pertains to the student activity in question.
If the residential parent presents the school official or
employee, the board of education of the school, or the

129a
governing body of the chartered nonpublic school
with a copy of that type of order, the school official or
employee shall permit the parent who is not the
residential parent to have access to the student
activity only in accordance with the most recent order
that has been issued pursuant to division (J)(l) of
this section and presented to the school official or
employee, the board of education of the school, or the
governing body of the chartered nonpublic school by
the residential parent or the parent who is not the
residential parent. Any school official or employee
who knowingly fails to comply with division (J) of this
section or with any order issued pursuant to division
(J)(l) of this section is in contempt of court.
(K) If any person is found in contempt of court for
failing to comply with or interfering with any order or
decree granting parenting time rights issued
pursuant to this section or section 3109.12 of the
Revised Code or companionship or visitation rights
issued pursuant to this section, section 3109.11 or
3109.12 of the Revised Code, or any other provision of
the Revised Code, the court that makes the finding,
in addition to any other penalty or remedy imposed,
shall assess all court costs arising out of the contempt
proceeding against the person and require the person
to pay any reasonable attorney's fees of any adverse
party, as determined by the court, that arose in
relation to the act of contempt, and may award
reasonable compensatory parenting time or visitation
to the person whose right of parenting time or
visitation was affected by the failure or interference if
such compensatory parenting time or visitation is in
the best interest of the child. Any compensatory
parenting time or visitation awarded under this
division shall be included in an order issued by the

130a
court and, to the extent possible, shall be governed by
the same terms and conditions as was the parenting
time or visitation that was affected by the failure or
interference.
(L) Any parent who requests reasonable parenting
time rights with respect to a child under this section
or section 3109.12 of the Revised Code or any person
who requests reasonable companionship or visitation
rights with respect to a child under this section,
section 3109.11 or 3109.12 of the Revised Code, or
any other provision of the Revised Code may file a
motion with the court requesting that it waive all or
any part of the costs that may accrue in the
proceedings. If the court determines that the movant
is indigent and that the waiver is in the best interest
of the child, the court, in its discretion, may waive
payment of all or any part of the costs of those
proceedings.
(M)(l) A parent who receives an order for active
military service in the uniformed services and who is
subject to a parenting time order may apply to the
court for any of the following temporary orders for
the period extending from the date of the parent's
departure to the date of return:
(a) An order delegating all or part of the parent's
parenting time with the child to a relative or to
another person who has a close and substantial
relationship with the child if the delegation is in the
child's best interest;
(b) An order that the other parent make the child

131a

reasonably available for parenting time with the
parent when the parent is on leave from active
military service;
(c) An order that the other parent facilitate contact,
including telephone and electronic contact, between
the parent and child while the parent is on active
military service.
(2) (a) Upon receipt of an order for active military
service, a parent who is subject to a parenting time
order and seeks an order under division (M)(l) of this
section shall notify the other parent who is subject to
the parenting time order and apply to the court as
soon as reasonably possible after receipt of the order
for active military service. The application shall
include the date on which the active military service
begins.
(b) The court shall schedule a hearing upon receipt of
an application under division (M) of this section and
hold the hearing not later than thirty days after its
receipt, except that the court shall give the case
calendar priority and handle the case expeditiously if
exigent circumstances exist in the case. No hearing
shall be required if both parents agree to the terms of
the requested temporary order and the court
determines that the order is in the child's best
interest.
(c) In determining whether a delegation under
division (M)(l)(a) of this section is in the child's best
interest, the court shall consider all relevant factors,
including the factors set forth in division (D) of this

132a
section.
(d) An order delegating all or part of the parent's
parenting time pursuant to division (M)(l)(a) of this
section does not create standing on behalf of the
person to whom parenting time is delegated to assert
visitation or companionship rights independent of the
order.
(3) At the request of a parent who is ordered for
active military service in the uniformed services and
who is a subject of a proceeding pertaining to a
parenting time order or pertaining to a request for
companionship rights or visitation with a child, the
court shall permit the parent to participate in the
proceeding and present evidence by electronic means,
including communication by telephone, video, or
internet to the extent permitted by rules of the
supreme court of Ohio.
(N) The juvenile court has exclusive jurisdiction to
enter the orders in any case certified to it from
another court.
(O) As used in this section:
(1) "Abused child" has the same meaning as in
section 2151.031 of the Revised Code, and "neglected
child" has the same meaning as in section 2151.03 of
the Revised Code.
(2) "Active military service" and "uniformed services"
have the same meanings as in section 3109.04 of the

133a
Revised Code.
(3) "Confidential law enforcement investigatory
record" has the same meaning as in section 149.43 of
the Revised Code.
(4) "Parenting time order" means an order
establishing the amount of time that a child spends
with the parent who is not the residential parent or
the amount of time that the child is to be physically
located with a parent under a shared parenting
order.
(5) "Record" means any record, document, file, or
other material that contains information directly
related to a child, including, but not limited to, any of
the following:
(a) Records maintained by public and nonpublic
schools;
(b) Records maintained by facilities that provide child
care, as defined in section 5104.01 of the Revised
Code, publicly funded child care, as defined in section
5104.01 of the Revised Code, or pre-school services
operated by or under the supervision of a school
district board of education or a nonpublic school;
(c) Records maintained by hospitals, other facilities,
or persons providing medical or surgical care or
treatment for the child;
(d) Records maintained by agencies, departments,

134a
instrumentalities, or other entities of the state or any
political subdivision of the state, other than a child
support enforcement agency. Access to records
maintained by a child support enforcement agency is
governed by section 3125.16 of the Revised Code.

